<html>
<title> - [H.A.S.C. No. 114-9] WHAT IS THE STATE OF ISLAMIC EXTREMISM: KEY TRENDS, CHALLENGES, AND IMPLICATIONS FOR U.S. POLICY
</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


.                                  

                          [H.A.S.C. No. 114-9]

                      WHAT IS THE STATE OF ISLAMIC

                   EXTREMISM: KEY TRENDS, CHALLENGES,

                    AND IMPLICATIONS FOR U.S. POLICY

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                              

                           FEBRUARY 13, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                        
                        
                         U.S. GOVERNMENT PUBLISHING OFFICE
94-096                          WASHINGTON : 2016                         
______________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f6e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>  
  
  


                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
STEVEN M. PALAZZO, Mississippi       DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
RICHARD B. NUGENT, Florida           MARK TAKAI, Hawaii
PAUL COOK, California                GWEN GRAHAM, Florida
JIM BRIDENSTINE, Oklahoma            BRAD ASHFORD, Nebraska
BRAD R. WENSTRUP, Ohio               SETH MOULTON, Massachusetts
JACKIE WALORSKI, Indiana             PETE AGUILAR, California
BRADLEY BYRNE, Alabama
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mike Casey, Professional Staff Member
                           Aaron Falk, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Braniff, William, Executive Director, National Consortium for the 
  Study of Terrorism and Responses to Terrorism (START), 
  University of Maryland.........................................     5
Flynn, LTG Michael, USA (Ret.), Former Director, Defense 
  Intelligence Agency............................................     3
Lynch, Marc, Professor, The George Washington University.........     7

                                APPENDIX

Prepared Statements:

    Braniff, William.............................................    50
    Flynn, LTG Michael...........................................    43
    Lynch, Marc..................................................    69

Documents Submitted for the Record:

    [Retained in committee files.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Scott....................................................    79

Questions Submitted by Members Post Hearing:

    Mr. Ashford..................................................    83
    Mr. Palazzo..................................................    83
    Mr. Shuster..................................................    85
                WHAT IS THE STATE OF ISLAMIC EXTREMISM:

                KEY TRENDS, CHALLENGES, AND IMPLICATIONS

                            FOR U.S. POLICY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Friday, February 13, 2015.
    The committee met, pursuant to call, at 9:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    On Wednesday, the President submitted to Congress his 
proposal for an authorization to use military force against 
ISIS [Islamic State of Iraq and Syria]. Although the President 
has ordered combat operations against ISIS take place in Iraq 
since last August and in Syria since last September, only now 
has he sought the congressional authorization required by the 
Constitution.
    Despite the airstrikes, press accounts indicate that ISIS 
has expanded its territory that it controls in Syria. The world 
has been horrified at its barbarism, which seems to have no 
limit.
    In the meantime, the United States has suffered a 
significant setback in Yemen. We have abandoned our embassy 
there, a place which the President once held out as a model for 
his counterterrorism approach. Now we are in a much weaker 
position to prevent attacks by the organization that has posed 
the most serious threat to our homeland in recent years.
    Elsewhere, Boko Haram is killing thousands and steadily 
advancing in Nigeria; Libya has become a breeding ground for 
terrorist groups; AQIM [Al Qaeda in Islamic Maghreb] still 
menaces the population in several North African countries; and 
there is concern that Al Qaeda in the Afghan-Pakistan region is 
becoming reinvigorated as U.S. troop levels are reduced.
    Congress will consider the President's AUMF [authorization 
for use of military force] proposal in the context of this 
wider fight against Islamist terrorists. The purpose of today's 
hearing is to evaluate how that broader struggle is going. 
Among the questions I have are: What are the trends we see with 
Islamist terrorists? Is their appeal growing or diminishing 
around the world? Is the threat to the United States becoming 
more or less serious?
    Many in Congress want reassurances that the President has a 
strategy to succeed against this threat and that he is 
personally committed to persevere until we are successful. It 
is clear that before we are successful we have to understand 
the threat, where we are, and where we are headed. That is the 
purpose of today's hearing.
    Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you.
    I thank the chairman for this hearing on this very 
important topic. I think it is the largest national security 
threat that we face as a country. And I know all three of our 
panelists have a lot of knowledge on the issue, and I think it 
will be very helpful for the committee to hear from them and 
engage in questions and answers as we try to figure out how to 
confront this threat.
    And part of the problem with the threat is it is not easy 
to define and is not to easy to put a strategy around, because 
it really is a broad ideology that has many, many different 
components.
    You know, post-9/11, we saw Al Qaeda as a terrorist group 
with a centralized leadership that was plotting and planning 
attacks against us and, I think, responded accordingly to try 
and defeat that organization, to try and defeat that network, 
and did a reasonably effective job of it in Afghanistan and in 
Pakistan as we prevented that group from being able to mount 
further attacks against us. That is the positive.
    The negative is that the ideology itself has metastasized. 
It has grown into a number of the groups that the chairman 
mentioned and even more than that, in a lot of different 
places.
    And the root cause is a lack of solid governance, a lack of 
solid economic opportunity in the Middle East and North Africa 
and much of the Arab Muslim world. They have an exploding youth 
population that has nothing to do; no jobs and no prospects. So 
the ideology that comes along and says, ``I have the answer for 
you,'' has plenty of willing recruits. And, meanwhile, they 
don't have much in the way of an example of a good government 
anywhere that they could look to and work with.
    So it is going to be very difficult to contain. I think the 
chairman laid out, you know, the challenges with ISIS in Iraq 
and Syria, the collapse in Yemen, the difficulties in Libya. 
But, overall, I think we need a long-term strategy.
    One of the things that I think has hampered us is this 
notion that we have to be able to confidently say either, A, 
that we are winning or that we are going to win and here is 
how. I honestly think that this is a long-term ideological 
struggle, not something that we can say, you know, we are 
determined to defeat it so let's just suck it up and 3 or 4 
years from now it will be done. It took 75 years to defeat 
communism. I think we have to figure out how to have a long-
term strategy for dealing with this ideology.
    Now, that doesn't mean that in the short term the ideology 
runs rampant. A huge piece of that strategy is containing the 
threat, figuring out how to protect our interests from 
violence, and figuring out how to begin to roll back these 
groups and roll back the advance of their ideology.
    But it is an issue that defies an easy answer. So what we 
hope to hear today is some ideas on how we can proceed and move 
forward, mindful of the fact that it is a very, very large 
problem that is going to take a long time to deal with.
    And the final point that I will make: One of the things 
that hamstrings us is it is not something the U.S. or the 
Western world can take care of. The Muslim world does not want 
the United States to show up and tell it what it ought to do. 
And this is true even of the moderate Muslims that we look to 
work with.
    We have to figure out how we can be helpful to support 
those moderate voices so that they can triumph, so that they 
can defeat these extremist ideologies. It cannot be Western-
driven, by the very definition of the way those folks look at 
the world. So we can help, but if we help too much, in an odd 
sort of way we wind up hurting the overall effort. I think that 
is the lesson we learned in Iraq and Afghanistan.
    So, with that, I look forward to the testimony, the 
questions. And I appreciate the chairman holding the committee; 
or the hearing, I should say.
    The Chairman. I thank the gentleman.
    I would just mention to Members that I think we are 
supposed to have votes on the floor roughly around 10:40, 
10:45. And so I am going to try to be fairly strict with, be 
strict with the time limits so we can move along smartly.
    I ask unanimous consent that the full written statement of 
all of our witnesses be made part of the record.
    Without objection, so ordered.
    Let me again thank our witnesses for being here.
    I am very pleased to see retired Lieutenant General Michael 
Flynn, former Director of the Defense Intelligence Agency; Mr. 
William Braniff, executive director, National Consortium for 
the Study of Terrorism and Responses to Terrorism, with the 
University of Maryland; and Dr. Marc Lynch with The George 
Washington University.
    All of these gentlemen have done very serious, helpful work 
for the committee and for the country on this topic of 
terrorism.
    And we are very grateful to have you with us today. As I 
said, your full written statement will be made part of the 
record. If you would like to summarize at this point and then 
we will get to questions, we would appreciate it.
    General Flynn.

 STATEMENT OF LTG MICHAEL FLYNN, USA (RET.), FORMER DIRECTOR, 
                  DEFENSE INTELLIGENCE AGENCY

    General Flynn. Great. Thank you.
    Chairman Thornberry, Ranking Member Smith, members of the 
committee, it is an honor to be here today, and I really 
appreciate the invitation.
    You have asked me to comment on the state of Islamic 
extremism. Today I have the unhappy task of informing you that, 
according to every metric of significance, Islamic extremism 
has grown over the last year.
    Whether it be the scale and scope of ISIS and its 
associated movements, the number of violent Islamist groups, 
the territory which these groups control, the number of 
terrorist attacks these groups perpetrate, the massive numbers 
and suffering of refugees and displaced persons due to these 
Islamist groups, that is approximately 15 million people, the 
amount of kidnapping and rape of women and children by these 
groups, the numbers of casualties they inflict, their broad 
expansion and use of the Internet, which is very serious, or 
just their sheer barbarism that we have witnessed, I can draw 
no other conclusion than to say that the threat of Islamic 
extremism has reached an unacceptable level and that it is 
growing.
    We are at war with violent and extreme Islamists, both 
Sunni and Shia, and we must accept and face this reality.
    This enemy has an engrained and unshakeable vision of how 
the world and society should be ordered, and they believe 
violence is a legitimate means of bringing about this ideal 
state. The violent Islamist is serious, devout, committed, and 
dangerous. His ideology justifies the most heinous, inhumane 
actions imaginable, and he will not be reasoned with, nor will 
he relent. This enemy must be opposed, they must be killed, 
they must be destroyed, and the associated extremist form of 
the Islamic ideology must be defeated wherever it rears its 
ugly head.
    There are some who counsel patience, arguing violent 
Islamists are not an existential threat and therefore can 
simply be managed as criminals. I respectfully and strongly 
disagree.
    I have been in the theaters of war of Iraq and Afghanistan 
for many years, faced this enemy up close and personal, and I 
have seen firsthand the unrestrained cruelty of this enemy. 
They may be animated by a medieval ideology, but they are 
thoroughly modern in their capacity to kill and maim, as well 
as precisely and very smartly message their ideas, intentions, 
and actions via the Internet. In fact, they are increasingly 
capable of threatening our Nation's interests and those of our 
allies.
    Furthermore, it would be foolish for us to wait until our 
enemies pose an existential threat before taking decisive 
action. Doing so would only increase the cost in blood and 
treasure later for what we know must be done now. Our violent 
and extremely radical Islamist enemies must be stopped.
    To that end, I offer the following three strategic 
objectives:
    First, we have to energize every element of national power, 
similar to the effort during World War II or during the cold 
war, to effectively resource what will likely be a 
multigenerational struggle. There is no cheap way to win this 
fight.
    Second, we must engage the violent Islamists wherever they 
are, drive them from their safe havens, and kill them. There 
can be no quarter and no accommodation for this vicious group 
of terrorists. Any nation-state that offers safe haven to our 
enemies must be given one choice: to eliminate them or be 
prepared for those contributing partners involved in this 
endeavor to do so.
    We do need to recognize there are nations who lack the 
capability to defeat this threat and will likely require help 
to do so inside of their own internationally recognized 
boundaries. We must be prepared to assist those nations.
    Third, we must decisively confront the state and non-state 
supporters and enablers of the violent Islamist ideology and 
compel them to end their support to our enemies or be prepared 
to remove their capacity to do so.
    Many of these are currently considered partners of the 
United States. This must change. If our so-called partners do 
not act in accordance with internationally accepted norms and 
behaviors or international law, the United States must be 
prepared to cut off or severely curtail economic, military, and 
diplomatic ties. We cannot be seen as being hypocritical to 
those we are partnering with to defeat radical Islam.
    Finally, in pursuit of these objectives, I fully support 
Congress' constitutional role in providing an authorization for 
the use of military force. This authorization should be broad 
and agile but unconstrained by unnecessary restrictions, 
restrictions that today cause not only frustration in our 
military, our intelligence, and our diplomatic communities, but 
also significantly slow down the decision-making process for 
numerous fleeting opportunities.
    It is important, however, to realize that such an 
authorization is neither a comprehensive strategy nor a war-
winning one. If there is not a clear, coherent, and 
comprehensive strategy forthcoming from the administration, 
there should be no authorization.
    With that, Chairman, I am happy to take your questions.
    [The prepared statement of General Flynn can be found in 
the Appendix on page 43.]
    The Chairman. Thank you, General.
    Mr. Braniff.

  STATEMENT OF WILLIAM BRANIFF, EXECUTIVE DIRECTOR, NATIONAL 
    CONSORTIUM FOR THE STUDY OF TERRORISM AND RESPONSES TO 
           TERRORISM (START), UNIVERSITY OF MARYLAND

    Mr. Braniff. Chairman Thornberry, Ranking Member Smith, and 
esteemed members of the committee, I would like to thank you on 
behalf of the START Consortium for inviting us to speak with 
you today.
    In 2013, over 22,000 people were killed in nearly 8,500 
terrorist attacks. When START releases the full Global 
Terrorism Database dataset for 2014, we anticipate it will 
include over 15,000 terrorist attacks.
    Our preliminary data from the first 9 months of 2014 
suggests that 7 of the 10 most lethal groups in 2014 were 
violent jihadist groups. And ISIL [Islamic State of Iraq and 
the Levant], among them, conducted more terrorist attacks than 
any other terrorist organization.
    The trend lines over the last few years are largely driven 
by two factors: first, the proliferation of groups associated 
with Al Qaeda in hotspots around the world; and, second, the 
rise of ISIL and its strategy of escalation through sectarian 
violence.
    What we have, therefore, is the makings of a global 
competition involving the most violent terrorist organizations 
in the world. This is even more troubling when one considers 
that both the theoretical and empirical work in the terrorism 
studies field suggests that competition among terrorist groups 
is one of the most important predictors of increasing lethality 
over time.
    To better understand this competition and its implications, 
I would like to contrast the operations and strategies of Al 
Qaeda and its associated movement, or AQAM, with those of ISIL.
    Al Qaeda is waging a protracted war of attrition against 
the West, specifically aiming to bleed the United States. If 
they are able to attrite the American economic, military, or 
political will to remain engaged in the Muslim world, local 
jihadists can overpower apostate regimes and establish what 
they would consider to be proper theocracies.
    To wage this war of attrition, Al Qaeda has sent operatives 
into conflict zones across the world to reorient the violence 
of militant organizations and individuals, refocusing their 
wrath on far-enemy targets, like Western embassies or tourist 
destinations.
    Al Qaeda seeks to use spectacular mass-casualty attacks to 
incite heavy-handed military responses from Western and 
apostate governments that seemingly evidence the war on Islam 
that Al Qaeda portrays in its propaganda, thereby polarizing 
the Muslim and the non-Muslim worlds and enabling jihadists to 
mobilize for a civilizational conflict.
    ISIL is not currently waging a war of attrition but one of 
escalation. Instead of inviting Muslim versus Western violence, 
it is benefiting from the resources already being mobilized by 
sectarian polarization that has taken place in Iraq and Syria 
and beyond, which it actively seeks to exacerbate. Instead of 
the far enemy, ISIL's military operations have focused on 
attacking competitors in their midst who do not submit to their 
ideological and organizational primacy and seizing the 
resources necessary to build the institutions of the caliphate.
    Given this competition, there are several implications for 
U.S. policy and regional security.
    The first: While Al Qaeda's far-enemy strategy relies on 
provocation to polarize and mobilize the masses, ISIL is 
ratcheting up already-elevated levels of sectarian tension in 
the post-Arab Spring world. The continued presence of the Assad 
regime in Syria serves as a more salient rallying cry for ISIL 
than for AQAM, and broad anti-Assad sentiment in Sunni-majority 
countries helps to dampen those governments' responses to both 
ISIL and groups like Jabhat al-Nusra, an Al Qaeda affiliate.
    As sectarian tensions remain high, ISIL and aligned 
jihadist groups will foster and exploit those tensions. ISIL 
veterans will travel to new fronts outside of Iraq and Syria, 
bringing their escalation strategy and sectarianism with them.
    In a worst-case scenario, this contagion effect runs the 
risk of inciting a sectarian civil war in the Muslim world, 
relegating the West to the role of observer, poorly positioned 
to take any meaningful action to protect itself or others.
    In addition, every new ISIL front opens up a new set of 
grievance narratives and a new set of mobilization pathways for 
terrorist organizations seeking to radicalize and recruit 
foreign fighters.
    Three, both ISIL and AQAM have incentives to conduct 
attacks against the West as part of this competition. For ISIL, 
attacks against the West can be used as a form of deterrence, 
making foreign countries think twice or pay the price for 
large-scale military interventions in Iraq and Syria.
    We cannot be fooled into thinking that Al Qaeda's focus on 
the caliphate prevents them from actively seeking the 
capability to conduct attacks against the homeland. For Al 
Qaeda and its associated movement, ISIL's antagonist rise to 
prominence has created a crisis of legitimacy, incentivizing 
them to use far-enemy attacks to regain the spotlight.
    Furthermore, if ISIL continues to murder Muslims and 
overstep its bounds, as we have recently seen with respect to 
the murder of a Jordanian pilot, Al Qaeda and its associated 
movement might wind up looking more legitimate and mainstream 
by comparison as long as they remain focused on the true 
enemies of Islam, the West. We cannot take, therefore, take 
pressure off of AQAM.
    To conclude, we are seeing an escalating competition among 
violent Sunni extremist groups at a time when sectarian 
tensions are high and many governments' hold on legitimacy is 
weak. It is essential, therefore, that any U.S. strategy 
prioritizes working with Sunni nations and communities to 
marginalize violent Sunni extremists.
    To do this, the U.S. must find a way to ease sectarian 
tensions and earn the trust of our Sunni partners, allowing 
them to focus their attention on marginalizing groups like ISIL 
and AQAM.
    Thank you.
    [The prepared statement of Mr. Braniff can be found in the 
Appendix on page 50.]
    The Chairman. Thank you.
    Dr. Lynch.

   STATEMENT OF MARC LYNCH, PROFESSOR, THE GEORGE WASHINGTON 
                           UNIVERSITY

    Dr. Lynch. First, I would like to thank Chairman 
Thornberry, Ranking Member Smith, and the whole committee. It 
is a real honor to be on this panel and to have the chance to 
speak with you.
    So, as you have heard from my colleagues, ISIL poses a 
serious threat to American interests, to the people of the 
region, to our partners in the region. And, of course, it is 
extremely important to not underestimate the nature of the 
threat or to misunderstand the nature of the threat.
    I think it is important, however, to not perhaps exaggerate 
its novelty or perhaps the magnitude of the threat. These are 
not super-humans with unprecedented ability to form states or 
to seize territory or to inspire.
    The world's history is full of insurgencies that have 
captured territory and sought to govern it by extracting 
resources from the local population. The world's history is 
full of insurgencies that have used graphic, violent terrorism 
to intimidate their enemies and to ensure control over their 
own local populations.
    We have seen both Islamist and other ideological movements 
over world history. This is a dangerous and violent 
organization which must be confronted, but it is important that 
we place it in proper perspective.
    I think the most important perspective that we need to keep 
is to understand the fundamental strategic dilemma that Islamic 
extremist groups have faced from their beginning, whether it is 
Islamic Jihad in Egypt or the Armed Islamic Group in Algeria or 
Al Qaeda in the 2000s or ISIL today. And that fundamental 
strategic problem is that while they do absolutely have the 
vision that General Flynn described, the characteristics that 
General Flynn described, and that extreme dogmatism, the vast, 
vast majority of the Muslims of the world do not agree with 
them. And they have failed every time they have attempted to 
reach out and to mobilize the world's Muslims on their side.
    The ideology and the strategy of Al Qaeda and ISIL is to 
create a class of civilizations, to create an unbridgeable 
divide between the Muslims of the world and the West. And what 
we must keep in mind as we formulate any kind of effective 
strategy is that the way to defeat ISIL, Al Qaeda, and all 
forms of violent extremism is to marginalize them and to form 
alliances with the vast majority of the world who reject their 
barbarism and who reject their extreme ideologies.
    The face of Muslims in the minds of Americans and the face 
of Muslims in the mind of the world should not be Abu Bakr 
Baghdadi. It should not be Osama bin Laden. It should not be 
the faceless murderers of the journalists of Charlie Hebdo in 
Paris. It should be Yusor Abu-Salha; Razan Abu-Salha; Deah 
Barakat, the Steph Curry-loving dental student and volunteer 
for Syrian refugees who was murdered in North Carolina this 
week.
    To defeat ISIL, America must be seen as their champion, not 
as their enemy. And if we are able to align ourselves with the 
aspirations and the hopes of Muslims all over the world, then 
ISIL can be defeated, and only then.
    And so I do not disagree with General Flynn's 
characterization of the threat posed by ISIL, but I believe it 
is extremely important that we approach this threat from the 
perspective of the need to constantly seek to deflate their 
pretensions, to marginalize them, and to expose their extremism 
in the eyes not only of us but of the Muslims who they seek to 
recruit, to mobilize, and ultimately to lead.
    Now, this was, I believe, one of the great 
accomplishments--the great bipartisan accomplishments of both 
the Bush administration after 9/11 and the Obama 
administration: the immediate understanding of this strategic 
divide and the need to not allow Al Qaeda after 9/11 to provoke 
this kind of clash of civilizations.
    President Bush, despite some missteps early on, I think did 
a fantastic job of trying to reach out to the Muslims of the 
United States and to ensure that this divide did not open up. 
And I think that is the bipartisan commitment that we should 
build on today.
    Now, in my prepared statement, I go through in some detail 
explanations for why ISIL has emerged in the form that it has 
today. I won't repeat those here. Let me just hit some of the 
bullet points, because I think it is important to place this 
into a specific political context.
    Ranking Member Smith, in his opening statement, mentioned 
the failures of governance, and I think this is extremely 
important. The failure of the Arab uprisings is a key part of 
the emergence of ISIL in the form it is today. An enormous 
number of young Muslims, young Arabs around the Middle East 
have seen their hopes raised and then crushed. The military 
coup in Egypt is a particularly defining point in proving, 
unfortunately, to a large number of people that peaceful 
political participation is not an option.
    If we are going to respond to ISIL in the way, as again, I 
agree with General Flynn, that we must, we need to address 
those underlying causes of despair, of alienation, and the 
absence of alternative paths, which is building the possible 
pool of recruits for ISIL.
    That includes reversing the sectarian misgovernment of 
Iraq. It includes trying to find some kind of peaceful de-
escalation of the war in Syria. And it means trying to find 
some way to align the United States with the forces of moderate 
and peaceful change.
    That is no easy task. I have some ideas about how we might 
go about doing that, but for now I will simply stop, and I 
welcome everyone's questions.
    [The prepared statement of Dr. Lynch can be found in the 
Appendix on page 69.]
    The Chairman. Thank you.
    Again, I appreciate the testimony from each of you.
    I would like to ask, hopefully, just a brief question from 
each of you.
    General Flynn, towards the end of your statement, you make 
a point that an AUMF should not be overly constrained. You have 
had a lot of experience fighting these folks in the Middle East 
and South Asia. Do you have an opinion about how difficult it 
would be for our troops to follow a restriction that said they 
could not engage in enduring offensive ground combat 
operations?
    General Flynn. Yes.
    So we need to be very clear in this AUMF that, you know, 
may come out of an agreement between the legislative and 
executive branches here. When we give our military commanders a 
mission, we should allow them to execute that mission and not 
overly constrain them with approved authorities but then having 
to come back to the administration for permission.
    So if we authorize the use of force to do something with 
these many times fleeting opportunities out there that our 
military forces see and then they have to come back up through 
a bureaucratic process to get permission even though there is 
an authority given to them, then either, you know, we need to 
review those authorities and those permissions or we need to 
change the commanders because we apparently don't trust them to 
do the job that we have given them to do. So that is a real 
problem today.
    Give the commanders the authority to execute the mission 
that they have been given. If they are not the right people, 
remove them and put somebody else in there that can do that. 
Otherwise, allow them to do the things that they have been 
assigned, tasked, and are very capable of doing in what is 
currently the AUMF that we have.
    We have become so overly bureaucratic in coming up through 
the system to get permission to basically do things that, 
frankly, colonels on the battlefield or captains at sea are 
very capable of doing.
    The Chairman. Okay. Thank you.
    Mr. Braniff, I was struck in your testimony that, as I read 
it, just in the last 12 months, we have seen a dramatic rise in 
these terrorist organizations and in their attacks.
    Now, as I understand it, one of the things your 
organization does is keep track of these with objective 
metrics. And am I reading that right, that even in the last 
year we have seen this problem get dramatically worse?
    Mr. Braniff. Mr. Chairman, if you compared the most violent 
terrorist organizations in 2013 to those in 2014, the level of 
violence from ISIL, the Taliban, Shabaab, Boko Haram, Al Qaeda 
in the Arabian Peninsula, and Tehrik-i-Taliban Pakistan have 
increased from between 2013 to 2014, according to preliminary 
data. Iraq, Afghanistan, Yemen, Somalia, and Libya have all 
experienced increases in terrorist violence between 2013, in 
our preliminary data, from 2014. Pakistan is the only, sort of, 
affected nation which has seen a decrease, out of the countries 
where Al Qaeda and its associated movement are active.
    So we have seen a year-on-year increase over the last 12 
months and over the 12 months before that and the 12 months 
before that, so the trend line is continuing to rise.
    A partial explanation is that a lot of the strategy now 
focuses on trying to build capabilities of partner nations to 
deal with this issue, and that is a slow process, and so things 
may get worse before they get better. That is an opportunistic 
read of the scenario. A pessimistic read of the scenario is 
that these organizations have enjoyed greater safe haven in a 
post-Arab Spring world and have seized on the less stable 
governments and are exploiting that safe haven.
    The Chairman. Okay.
    So, Dr. Lynch, I am a little perplexed by a sentence you 
have in your prepared statement that says, ``The U.S. has thus 
far crafted an effective strategy in responding to ISIL, which 
has halted its momentum.''
    Is that the way you see the developments over the last year 
or so?
    Dr. Lynch. Thank you, Chairman.
    Yes. I actually think that the way the administration has 
crafted a strategy as an initial step has been quite effective.
    They managed to leverage the increased military commitment 
in Iraq into the most important move, which was a change in the 
Government of Iraq and the removal of Prime Minister Maliki, 
who, in my opinion, had carried out a campaign of sectarian 
misgovernment and corruption which had lost and squandered all 
of the gains of the previous years.
    By managing to then get a new Iraqi Prime Minister willing 
and able to reach out to Iraqi Sunnis and then to use airpower 
and limited military support, the momentum of ISIL has been 
halted. They are no longer able to advance. They suffered a 
serious defeat in Kobane, thanks to coalition airpower.
    And they have now seen a significant reversal in the eyes 
of Arab public opinion after the brutal murder of Jordanian 
pilot Moaz al-Kasasbeh. And momentum matters for them, because 
their appeal was rooted in the idea that they were a winner. 
And now people aren't so sure, and I think we might actually 
see people jumping off the bandwagon faster than we think.
    The Chairman. I appreciate it. Obviously, I hope the 
optimistic scenarios prove right. I worry that we see momentum 
through our eyes, not necessarily through their eyes.
    But, at this time, I would yield to Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Just following up on that rather key point, there are 
problems all over the world. Yemen, ironically, is a Shiite 
uprising that has, you know, overturned the government there, 
which gets us into the whole issue that if, you know, decent 
governance in that region is going to depend upon, believe it 
or not, Saudi Arabia and Iran figuring out how to get along in 
that part of the world, because neither one is going to be able 
to vanquish the other, and, in the meantime, they are doing 
enormous damage to each other. But that is a subject, perhaps, 
for a whole other hearing.
    But this notion that, you know, it is all falling apart, 
these guys are, as you said, Dr. Lynch, superman, they are 
going to take over everything, and I think the analysis of ISIL 
is interesting. You know, you watch the news reports and then 
the chairman's comments about how they are still spreading, 
they are still going. That is what people believe. That is 
simply not the case.
    Several months ago, and I am going to get my timeline 
wrong, when they went rolling through, you know, out of Syria, 
went rolling through Iraq, took Mosul, everyone was saying, oh, 
my goodness, they are going to be in Baghdad next week. Well, 
they are not, and they are never going to be. They were, as you 
mentioned, rolled out of Kobane.
    They have not taken any territory since that initial surge, 
and they have given back territory. They were also within miles 
of Erbil, and, again, my timeline is off here, but a few months 
before. But with allied support and with support for the Kurds, 
they were pushed back.
    So we have to keep this in a realistic perspective, because 
I think our greatest strength and possibility here is what you 
said: These guys can't govern. They cannot deliver for the 
Muslim population. And in Mosul right now, it is falling apart. 
The electricity is off pretty much every day. Nobody is picking 
up the garbage. They can't govern. The people there are only 
staying with them out of fear.
    So I do believe that ISIL's momentum has been blunted. And 
it is really interesting; it has been blunted in part with the 
help of the U.S. military, but it has been blunted more by 
their own weaknesses. And that is what we have to remember, and 
that is what I want to ask General Flynn about.
    You know, I get this, it is an existential threat. I agree 
with you. And, therefore, we have to, you know, amass all of 
our forces and figure out how to defeat them.
    But, fundamentally, do you disagree with the statement that 
U.S. military might is simply not in a position to defeat this 
ideology because of this clash of civilizations, because of the 
way the Muslim world looks at Western aggression, and that the 
only way that we are going to be successful is if we get 
moderate Muslims to rise up against these folks and support 
them? I mean, do you think it would be good to drop a whole 
bunch of troops down in the middle of Syria and Iraq right now 
and go get them? Or don't you see, sort of, how that would 
perhaps play into the hands of ISIL?
    And, if so, what does it mean to say we are going to mount 
all of our, you know, military might and go get them? Don't we 
have a little bit of a Gordian knot in that regard?
    General Flynn. So the answer, quick answer is----
    Mr. Smith. Sorry, that was, like, six questions.
    General Flynn. Yeah, I know.
    Mr. Smith. It is early in the morning.
    General Flynn. You typically do that to me.
    Mr. Smith. Yeah.
    General Flynn. So, overall, the answer is yes.
    Mr. Smith. That you believe you----
    General Flynn. Yes, that I don't think, I don't believe, 
what you just said about, you know, dropping in, you know, 
hundreds of thousands, or U.S. forces, you also said that they 
are an existential threat. I wouldn't sit here today and say 
ISIS is an existential threat to this country.
    Mr. Smith. The broader ideology.
    General Flynn. But the broader ideology is one that will 
get inside of our bloodstream, get inside of our DNA, if you 
will, and will permeate over time if we don't do something 
about it now. So it doesn't help us to just kind of wait to do 
something.
    Now, when I describe, you know, in what I recommended 
about, you know, the combination of the elements of national 
power, I mean, you just look at the information campaign that 
is being waged not by just ISIS but by Al Qaeda writ large and 
the way that they are able to do it, the sophistication that 
they are able to do it, I mean, that campaign alone, the 
military has some little bits and pieces of trying to counter 
that on a tactical battlefield, but there has to be a broader 
imagination that this country, working with partners and 
working with some of these, you know, so-called moderate 
nations, and I say that in my statement about, we have partners 
out there, and, you know, we have to really be honest with 
ourselves about some of these partners.
    Mr. Smith. Yeah.
    General Flynn. I mean, we can't continue to fund and do all 
these kinds of things and have some of these nations sit at the 
table with the United States of America when, in fact, we know 
that they are funding some of these organizations. That is a 
diplomatic tool that we have to leverage.
    And there are economic tools that we have to leverage. When 
we say that we are going after terrorist financing and we are 
going to stop this guy or we are going to shut down this money 
being made by the Baiji oil refinery, those are tactical 
things.
    We have to look at how are we dealing with the moderate, 
frankly, the moderate Arab world and these nations where we do 
have economic partnerships and relationships. And we need to 
ask them, are they doing everything they can from the role of 
being moderate----
    Mr. Smith. Let me clarify. And I think Dr. Lynch would 
agree. You know, I am not going to say that there is a 
moderate, you know, Muslim nation that, we are talking about 
more individual people and groups than we are one nation or 
another.
    General Flynn. Yeah.
    Mr. Smith. And, you know, for instance, I mean, the biggest 
success that we had in Iraq was the Anbar Awakening. And that 
wasn't a government. That was Sunni tribes----
    General Flynn. Yeah.
    Mr. Smith [continuing]. Rising up and saying, and you were 
there. You know how----
    General Flynn. Well, I agree. I mean, it took 50,000 more 
troops, though, too. The Anbar Awakening was incentivized by 
another 50,000 U.S. American troops on the ground.
    Mr. Smith. That is a fascinating argument, because, you 
know, the Anbar Awakening was a force multiplier of, like, 2 
million.
    General Flynn. Yeah, but, I mean, I talk to some of these 
individuals almost on a daily basis who were involved in this.
    So I guess what I am telling you, Congressman, is that we 
have to be far more sophisticated, and we really do have to use 
our imagination to defeat this ideology. Tactically, we need to 
go after ISIS, you know, and then, frankly, any of these other 
safe havens.
    But we have to be more sophisticated in our application of 
all the instruments of national power to be able to achieve 
what it is that I believe we need to achieve over a long period 
of time, as you recognize in your opening statement.
    Mr. Smith. And I won't disagree with that. The only thing I 
will say is I worry a great deal about the notion that people 
are focused on the U.S. military as the solution to this 
problem.
    General Flynn. Yeah.
    Mr. Smith. And I worry when we talk about, oh, you know, 
the AUMF has to be open-ended so we can go anywhere anytime. 
And believe me, I love the military, you know.
    General Flynn. Yeah.
    Mr. Smith. You work with them, you ask them if they can do 
something; is the answer ever no?
    General Flynn. No.
    Mr. Smith. It is not.
    General Flynn. It is not.
    Mr. Smith. I mean, you tell them, you know, you have five 
guys, can you defeat these, yeah. I mean, that is just how they 
are oriented. And that is terrific.
    But that isn't always the right strategy; because sometimes 
there are things that military might can't do and, in this 
case, can really sort of turn it back around on us if we aren't 
careful.
    General Flynn. But there is, and I am sorry because I don't 
want to go into too much of this. But there is a benefit to 
applying pressure on an enemy.
    Mr. Smith. Absolutely.
    General Flynn. So you have to not let them have a sound 
night's sleep anywhere where these vicious individuals exist 
and groups exist.
    And, in the meantime, all the other pieces that we have to 
bring to bear, and that is really my, that is my argument. And 
that is one administration to the next, because I think the 
last administration really struggled and maybe came to that 
realization later on.
    Mr. Smith. It is not an easy answer.
    General Flynn. It is not. It is not an easy answer.
    Mr. Smith. I mean, it is not easy to know when to apply 
force and when not to. And, you know, there is a lot more 
tactics than strategy.
    You have been generous with the time, Mr. Chairman. I yield 
back.
    The Chairman. Thank you.
    Mr. Miller.
    Mr. Miller. Thank you very much, Mr. Chairman.
    General Flynn, in 2002, the authorization for use of 
military force basically said the President is authorized to 
use the Armed Forces of the United States as he determines to 
be necessary and appropriate.
    Why do you think we now have an AUMF before us that puts 
restrictions on it on things that the President claims he can 
do without an AUMF?
    General Flynn. I guess my answer to that would be, whatever 
the decision is between this body and the executive branch of 
government, we have to make sure, in one sense, we have to play 
our cards very close to our chest, meaning don't discount any 
option that the United States of America has by telegraphing 
what those options are or are not going to be, you know, we are 
not going to commit troops or we are not going to do this or 
that. So I just think that we have to play a very smart card 
game with the AUMF.
    I think on this AUMF thing, though, is that, like I said, 
that is not a comprehensive strategy. That is a component of 
something that we need. And, like I said to the chairman, we 
have to make sure that when we lay this out to our military 
forces, primarily, and, to a degree, some inside of our 
intelligence community, that they have the full authority to be 
able to execute the tasks that they are going to be assigned. 
Otherwise, you know, you are tying our hands behind our back, 
so to speak, and we are slowing the system down through 
unnecessary bureaucracy.
    Mr. Miller. Thank you.
    Dr. Lynch, do you really think that a group of barbarian 
thugs who would make a fellow human being kneel down before 
them and cut their heads off really care if they are 
marginalized? Or do you really think that a group of barbarian 
thugs who would put a fellow Muslim in a cage, douse him with 
gas, set him on fire, and watch him burn to death really care 
if they are marginalized?
    And if you think that, how long do you think it will take 
for this marginalization to take place?
    Dr. Lynch. Thank you, Congressman. It is a great question 
and a really important one.
    I don't think they care. But the nature of their not caring 
is extremely important.
    So, basically, when you are a group like Al Qaeda or a 
group like ISIL, you have two basic strategies you can pursue, 
the same as an election here, right? You can play to your base, 
or you can try and reach out to the median voter.
    And what you are seeing with ISIL is very much a base 
strategy, right? They have decided that they want to mobilize 
the already-radicalized, the most dangerous people, the 
disenfranchised, the ones who are already radicalized, and they 
want to get them out to Syria and Iraq and to join.
    And so what we are seeing is that, at least by press 
accounts and open-source accounts, the flow of foreign fighters 
is increasing. In other words, those brutal videos are actually 
inspiring that very small number of people and getting them to 
leave Cairo, to leave Tunis, and come out to ISIL. But, at the 
same time, they are alienating the broader mainstream public.
    And so the way I would reframe your question is, is this 
drying up their pool of recruits faster than they can get them 
and extract them and bring them into their fight? And I think 
that the answer to that is still unclear. And that is why I am 
advocating a strategy in which we try and accelerate their 
marginalization and alienation from that broader pool of 
potential recruits.
    And so, no, I don't think they care in the slightest. Many 
of you remember the old battles between al-Zarqawi and Zawahiri 
about the strategy of Al Qaeda and Iraq. And Zarqawi's response 
to criticism that he was alienating Muslims by butchering 
Shiites was saying, I don't care, I am closer to God than you 
are. Right? I don't care about the mainstream Muslim who has 
already abandoned God. He chose a base strategy, which is what 
ISIL has done, as well.
    And so we need to recognize that and then try and make them 
pay the cost for that base strategy.
    Mr. Miller. And that cost is?
    Dr. Lynch. That cost is to continue to, and I think we have 
already started this, and I think our Arab allies have done 
this, is a really strong strategic communications campaign to 
highlight their barbarity, to highlight their extremism, to 
deflate their pretensions to power, to expose the realities of 
life in ISIL-governed territories, and to puncture their 
mystique in such a way that the alienated, disenfranchised 
youth in Tunis or in Libya doesn't see it as an attractive, 
noble, or heroic thing to go and join this group.
    And I think that that is the way we need to approach them, 
to undermine them and deflate them rather than to exaggerate 
their capabilities.
    The Chairman. I thank the gentleman.
    Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chair.
    General Flynn, thank you for your testimony and for your 
service. I think you made a number of excellent points, 
including the need to have a clear and comprehensive strategy 
from the administration before we move forward with an 
authorization for the use of military force.
    You also talked about our need to rethink our relationships 
with our regional allies. And I think you said something to the 
effect of, if they failed to adhere to global standards and 
norms and values----
    General Flynn. International law.
    Mr. O'Rourke [continuing]. And international law, then we 
need to rethink our ties. And I think you maybe even said cut 
off those ties.
    When I think about our allies there, the royal family in 
Saudi Arabia, the prior leadership in Yemen, al-Maliki prior in 
Iraq, Sisi, these are governments that, in many cases, are 
amongst the most corrupt or venal or repressive in the world, 
and yet they are our allies in this fight.
    How do we pursue a strategy in that region and be 
consistent to the advice that you gave us, which I think is 
really good advice? And I think those repressive regimes and 
our relationships with them complicate our ability to be 
effective in the Middle East.
    General Flynn. Yeah. Thanks very much for asking that 
question.
    This is the essence of the problem. This is not a military 
phenomenon that we are facing, back to the ranking member's, 
you know, missive about what he was talking about with military 
and boots on the ground. And everybody sort of throws that 
phrase around. We need to stop using that, by the way. We need 
to really understand what does that mean.
    This is a social, a cultural, and a psychological 
phenomenon, particularly in the Arab world. And the potential 
breakdown of, sort of, Arab world order over time if we do not 
change this mindset and really move some of these countries to 
change their internal behavior, what we saw in Egypt as an 
example of essentially three regimes, now with President el-
Sisi in there. And what President el-Sisi is trying to do is he 
is just trying to bring a sense of security and stability 
before they can even think about returning to any kind of form 
of prosperity.
    I think a country like Jordan, the King there and how they 
treat their population and how they are being, you know, a 
really exceptional moderate example within this very, very 
difficult part of the world that we are in, there are others, 
there are other templates, if you will, out there.
    But the underlying conditions that I think everybody 
recognizes, all of us recognize, if those underlying conditions 
don't change, then what is going to happen is this problem is 
going to continue to grow, and it is going to undermine the 
stability of these countries to the point where they are going 
to lose, they are eventually going to lose.
    And it is not just Iraq and Syria and what we are seeing 
there. I mean, we were already talking about, you know, a lot 
of other places around the trans-region area that are at risk. 
I mean, what just happened with this Houthi separatist movement 
down in Yemen, this movement has been going on for a long, long 
time. And then, of course, you got Al Qaeda that took over this 
military base.
    I mean, Libya, those two states right now, and you know, we 
should look at ourselves, those two states right now are 
failing or failed states or will become that way, because who 
will recognize Yemen? Will it be us, or is it going to be Iran? 
Because Iran fully backs that Houthi separatist movement that 
just took over Yemen. And that was a country that we were 
trying to defeat this threat, this Sunni version of radical 
Islam.
    So, I mean, this is a really, that is the essence of the 
problem. And we have to look at how do we want to act. When 
somebody sits at the table of the United States of America, 
they better be sitting there fully recognizing international 
law and at least having a recognition of internationally 
accepted norms and behaviors. If they don't, we are being 
hypocritical.
    Mr. O'Rourke. And I wonder if we have the will to act on 
that and to really deliver some consequences, withdrawing 
military aid, isolating those countries, rethinking our 
relationships. And, in the past, we have proven unable to do 
that or unwilling for probably important tactical or strategic 
reasons. And I think we will really be tested right now.
    My time is up. Thank you, Mr. Chairman.
    General Flynn. Just real quickly, we are not chained by oil 
to the, you know, the United States is no longer chained to the 
Middle East for oil. That is a big deal.
    So, sorry.
    Mr. O'Rourke. Yeah.
    General Flynn. Sorry, Chairman.
    The Chairman. Appreciate it.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    General Flynn, I have a question for you. I am really 
concerned that, just this week, President Barack Obama was 
interviewed and compared fighting ISIS to a big-city mayor 
fighting crime. And that really troubles me, because there is 
no comparison. That is a horrible and poor analogy.
    In a big city, if you have criminals like muggers, 
carjackers, drug dealers, they are not trying to kill the mayor 
and take over the city government, which is what ISIS is trying 
to do in the various countries in the Middle East. And they 
want to take over and destabilize Jordan and Saudi Arabia, 
ultimately go after Israel.
    There is just no comparison to a big-city mayor fighting 
crime. Are you troubled by that type of analogy? And does that 
indicate to you, like it does to me, that he just doesn't get 
it?
    General Flynn. Well, what I have said is that you cannot 
defeat an enemy that you do not admit exists.
    And I really, really strongly believe that the American 
public needs and wants moral, intellectual, and really 
strategic clarity and courage on this threat.
    I mean, there is no comparison. And it is not to take away 
the danger that exists with the thugs and the criminals that 
are in our own system, but that is not what it is that we are 
facing in this discussion that we are having right now. It is 
totally different.
    Mr. Lamborn. Also, let me change subjects and ask about 
Guantanamo Bay. And there was an interesting exchange over in 
the Senate the other day. And my friend and colleague Senator 
Tom Cotton of Arkansas was talking to an administration 
official and making the point that the fight was brought to our 
homeland before Guantanamo Bay ever existed and, even if the 
President succeeds in shutting it down, the fight will continue 
against us.
    So do you agree with me that it is important to have a 
place where we can detain the worst of the worst, which takes 
them out of the fight, until such time as maybe they go before 
a military tribunal or in some way face justice and that that 
outweighs whatever propaganda effect the bad guys have, who 
will find something to criticize us for if they don't have 
that?
    General Flynn. Yeah. Thank you for asking that question.
    A couple of things. There are three ways to deal with a 
terrorist: You kill them, you capture them, or you turn them. 
And you work with these partner nations around the world. And 
the Saudis actually had a pretty effective program a few years 
back where they were turning them, dealing with their families 
and things like that. But those are the three ways to deal with 
a terrorist.
    We say, and this gets back to the question on the AUMF. 
Because, right now, we are not capturing anybody. I mean, we 
might go out and detain somebody, you know, and it is work 
between the military and the FBI [Federal Bureau of 
Investigation], like we did with this guy in Libya. But there 
are a lot of others out there that we probably would benefit 
from capturing.
    I mean, we used to say, when I was in the special 
operations community, that had we not had the ability to 
professionally interrogate those that we captured, the high-
value targets or the mid-value targets, we might as well take 
that Cadillac and bring it on home and park it in the garage. 
Because the capturing of individuals in this environment is 
actually, it is the best form of intelligence that you can get, 
period, bar none.
    I have lived it. I have run those facilities, and we know 
how to do them very professionally because we learned a really 
ugly lesson, you know, over 10 years ago now. So you have to be 
able to do that.
    Mr. Lamborn. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Cooper.
    Oh, he is not here.
    Ms. Graham.
    Ms. Graham. First, thank you very much for being here this 
morning.
    You have touched a bit on other terrorist groups in the 
region. Could you please provide an update on Hezbollah?
    Thank you.
    General Flynn. I will give it a shot, and you guys can 
talk.
    I mean, so Hezbollah is an Iranian-backed group. I believe 
we are still designating them as a terrorist organization, our 
State Department.
    Hezbollah is deeply involved in Syria. So they are fighting 
in Syria. Members of Hezbollah are fighting, and they are 
actually leading and doing some of the, sort of, what I would 
call special-operations-type training of some of the Syrian 
forces.
    Hezbollah is involved in Yemen. Hezbollah is certainly 
involved in Lebanon and some of the disruption of things in 
that particular country. And Hezbollah is involved in Iraq, as 
well. So members of Hezbollah are, in fact, inside of Iraq 
fighting with what I would describe as what we used to call the 
Badr Corps organization, which we know is led by members of 
Iran's IRGC [Iranian Revolutionary Guard Corps].
    So Hezbollah is a very dangerous organization. They are 
responsible for killing many, many Americans, and we need to 
not let them, sort of, get a pass on any of this.
    Dr. Lynch. Thank you, Congresswoman.
    Let me just say very quickly that Hezbollah actually has 
been in a very difficult position for the last several years 
because of its role in Syria, which has been quite 
controversial. It is exposed now in ways that it never was 
before. It enjoyed, in the past, a very solid and basically 
impregnable base in the south of Lebanon and in the Shia 
community of Lebanon, and from there it was able to play a 
dominant role in not just Shia politics in Lebanon but in the 
overall Lebanese political system.
    Now, Lebanon is a state that is hanging on by its 
fingernails, more than a million Syrian refugees, growing signs 
of sectarian conflict and violence, and even a lot, I mean, 
there are increasing signs of grumblings among the Shia middle-
class community itself, saying, ``What happened to protecting 
our interests? Why are our boys going out and dying in 
Syria?'', but, also, at the same time, radicalization of those 
Shia communities, saying, ``Why aren't you fighting Israel? Why 
aren't you doing more?''
    So the leadership of Hezbollah is clearly, I mean, yes, it 
is a clearly a dangerous and extremely capable and robust 
organization. But this is probably the most difficult political 
situation it has faced in many, many years. It no longer can 
claim to speak for a broad resistance to Israel. Nobody 
believes that anymore because they have seen, no Sunnis believe 
that because they have seen Hezbollah men out there killing and 
murdering Sunni civilians, so they have lost that card. And 
they are much weaker because the Lebanese state is much weaker.
    So it is a very difficult time for them, and they are 
having, I would say, a very difficult time navigating this new 
situation.
    Mr. Braniff. Thank you, Congresswoman.
    The only thing I would add is that I mentioned the word 
``sectarianism'' numerous times in my oral testimony. I find 
this to be a very important issue that we have to understand, 
that one of the ways that extremist ideologies can become more 
mainstream is when societies are polarized and people feel like 
they have to pick a side, that they have no choice but to pick 
a side, and the only candidates for their vote, so to speak, 
are extremist organizations in this very polarized environment.
    So I worry about the sectarian violence in Syria being 
exported to other neighboring countries and creating a wider 
sectarian conflict. Hezbollah is one of the organizations that 
could be a conduit for that spread of sectarian violence. And 
Lebanon, as a country with a very interesting, sort of, 
denominational system of representation, is really the kind of 
country that would be vulnerable to sectarian violence going 
forward.
    Ms. Graham. Thank you. I appreciate the update.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for joining us today. Thank 
you for your testimony.
    General Flynn, how worried are you about American citizens 
becoming radicalized, training overseas, and returning back to 
the United States?
    And are there additional steps that the U.S. should take in 
addressing those citizens that travel to train with ISIS in 
Syria and Iraq and then later return back to the United States 
and the threats that they would pose here?
    I would like to get your perspective.
    General Flynn. Yeah. First, I think that our FBI and the 
leadership of the FBI is doing a phenomenal job dealing with 
this issue here in the homeland.
    Just to give you a little perspective, when somebody shows 
up to Syria, okay, and this has been going on for a while, they 
do a little vetting of who these individuals are. And if it is 
somebody who just came over, you know, to sort of get their 
jihad on, so to speak, they may just tell them, ``You are going 
to be a suicide bomber. Here is what we are going to do, here 
is where you are going to operate, and go forth and do good.''
    In the other parts of the vetting, though, they look for 
individuals who have different skill sets, who have savvy with 
the Internet, who have some leadership skills, who maybe have 
some engineering capabilities. So they are sophisticated in how 
they recruit, particularly when they arrive.
    And those individuals then get put into a different 
pipeline. They may not get put into the suicide-attacker or 
VBIED [vehicle-borne improvised explosive device] pipeline; 
they may get put into a different pipeline. And those are the 
individuals that there will be, sort of, a different future for 
them to maybe come back to this country and get involved in 
additional recruiting, additional activities, and maybe, you 
know, larger-scale types of attacks that we are trying to 
avoid.
    So I just think that, a variety of reasons why they get 
recruited. The Internet is a big, big part of this. I think our 
FBI is doing the best job that they can. But we really need to 
recognize and track who these persons are.
    And I will be honest with you. If somebody is going to 
conspire to fight against us, which is essentially what they 
are doing, there also has to be a discussion, at least, about 
their citizenship.
    Mr. Wittman. So you think then the additional step is to 
look very carefully at those people that travel. Of course, my 
concern, too, is that Turkey is a conduit for people traveling 
into Syria and those areas. So are there additional steps we 
should take in working with Turkey to be more aggressive with 
them, looking specifically at those folks that have left the 
country, but some kind of provision on their return, about the 
conditions on their return back to the United States? Give me 
your perspective.
    General Flynn. Yeah, so the combination of intelligence and 
law enforcement is a big deal and gets right at what you are 
talking about. So we have to make sure that there are good 
mechanisms in place, processes in place to rapidly share 
intelligence, rapidly share law enforcement, sensitive law 
enforcement information. And we need to be able to deal with a 
variety of partners, Turkey being probably one of the principal 
ones right now because if we know somebody is getting on a 
plane out of LaGuardia or Dulles to fly over to Ankara, then we 
need to make sure that we recognize who they are and they are 
being tracked; they have the right visas. And then, you know, 
Turkey needs to know what they are doing over there. And this 
is one of these difficult things because we are trying to also 
protect our own freedom to travel and all that sort of 
business. But we have got to know, why are you going there? Are 
you part of a nongovernmental organization? Are you part of a 
private organization that is going to provide some humanitarian 
assistance, or are you going over there for some other ill-
gotten gain?
    Mr. Wittman. Let me ask you this: We have seen what is 
happening in Yemen. It is collapsing before our eyes. Our U.S. 
Marines, our embassy staff, the embassy now is abandoned. We 
see the chaos that is going on there. We see Iranian influence 
there in that particular region. It was not long ago pointed to 
that this was one of our foreign policy successes and how we 
dealt with terrorism; that we were in support of the government 
there; that our counterterrorism efforts were successful. A 
couple of questions. What went wrong? And is this an indicator 
of a broader weakness or failure of U.S. foreign policy?
    General Flynn. From my perspective, the last decade-plus of 
war, if I had to give you one lesson learned, that lesson 
learned would be that we failed and we continue to fail to 
understand the threats that we face, and that failure is 
leading to a mismatch in strategy and resources that we are 
applying against these threats.
    And, therefore, that failure is leading to these types of, 
you know, things that we are seeing in a Yemen and in other 
parts of the greater Arab world. And I think the second-, 
third-, fourth-order effects of Libya, I am really concerned 
about post a period of time in Afghanistan, based on what we 
have already heard we are going to do, and I noticed in The 
Washington Post today there is an article there about, you 
know, we are rethinking our timeline for departure from 
Afghanistan. I think that is appropriate. So that failure led 
to a mismatch in resources and strategy as to how we applied it 
against this enemy.
    The Chairman. Thank you.
    Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you all for being here and for your presentations.
    General Flynn, could you follow up a bit on your comment 
just now because you are talking about the lessons learned 
about the mismatch and the threats. And would you make that 
same analysis about even our not understanding the country of 
Iraq, for example, when we went into Iraq and may have created 
more enemies than friends. How would you respond to that?
    General Flynn. Yeah, I think that that is very, you know, I 
mean what you are implying is very true. And I think that we, 
you know, in the spectrum of conflict, when we define the 
spectrum of conflict, we in the military look at it from peace 
to war. The political dimension of our country has to look at 
it from peace and get us back to peace in order to get us out 
of war. And we did not, we don't do a really good job thinking 
past the point of conflict or the point of war.
    And we have to do that. And I think that is part of this 
debate, as the ranking member was highlighting, that we have to 
not just throw military resources at this thing; we have to be 
far more sophisticated. But that is not comprehensive right 
now. That sophistication, I don't see it. And I have been 
studying this problem for a long time, and I am, you know, I am 
hopeful that we can get our act together. But it has to be one 
that is very, very comprehensive, and it is going to be a 
multigenerational problem.
    And there are moderates out there that we do need to 
encourage. Somebody sent me a note the other day and said, Hey, 
you know, there is 126 subject-matters experts, you know, 
clerics and others in the Muslim world that came out strong 
against ISIS. Why aren't there 126,000? Why are there only 126? 
I mean, there is that many mosques in Baghdad. I mean, there 
should be thousands, and there should be leaders of these 
countries that we are dealing with that need to stand up and 
make a statement, make a strong statement, about what it is 
that we are doing or not doing. So----
    Mrs. Davis. Thank you. Right now I think there are, 
perhaps, some opportunities that we are not using. I am 
thinking of the Peshmerga in Kurdistan. Have you had any 
thoughts about that, why we are not utilizing and doing as good 
a job as we can in really facilitating greater involvement on 
their behalf? They are asking for it. We are not doing it.
    General Flynn. Yeah, I mean, I just think that is a great 
question to ask, you know, especially from this committee. So, 
yeah, we could do more, and we could give them more support. We 
could help in training them and getting them more sophisticated 
and really putting in the right kinds of military tools. But 
that is, you know, again, we need to be careful that we don't 
always get drawn back into what is actually the easiest part of 
a strategy, which is to throw a military force at it.
    Mrs. Davis. Can't agree with you more.
    General Flynn. I mean, you know, so we just have to be more 
sophisticated is my----
    Mrs. Davis. Yeah, thank you. If I can go on.
    General Flynn. Go ahead.
    Mrs. Davis. Shifting to another region, the Boko Haram. 
Before a Senate Intelligence Committee meeting yesterday, the 
growing connections between ISIS and the Boko Haram was 
mentioned. I don't know whether you happened to hear that 
discussion, but shouldn't, I mean, where even in terms of the 
AUMF are we thinking about that connection and the, I guess, 
horrible potential that that would bring as well?
    General Flynn. Yeah, I will let Bill answer this too 
because I think he mentioned Boko Haram in his statement. And 
one, number one, Boko Haram is incredibly vicious. I mean, my 
God, look at what they have done to the children, young women. 
I mean, these are children. So, and I can't put that aside, but 
now so the connection between these organizations is very real. 
And we know, we know, that Al Qaeda, so the Al Qaeda command 
and control, Al Qaeda senior leaders were, in fact, dealing 
with Boko Haram, you know, in a sort of a cursory way when bin 
Laden was still alive. Okay, so this is not some connection 
that just all of a sudden happened and Boko Haram has just 
popped up. And, hopefully, you have seen General Rodriguez, our 
Commander of AFRICOM [U.S. Africa Command], recently talking 
about we need a full sort of counterinsurgency effort. And, 
again, I think there are seven or eight nations in Africa that 
are trying to come to grips with dealing with Boko Haram right 
now. They just postponed their elections. I mean, again, this 
is a long-term problem, and these groups are, in fact, 
connected.
    Mrs. Davis. Thank you. I think my time is up, and perhaps 
Dr. Lynch can bring this up later, or----
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Just a question about ISIS. I served in Iraq with the 
Marine Corps, in 2005, in Ramadi and Fallujah; in 2006, in 
Haditha, Barwana, Haqlaniyah in the Western Euphrates River 
Valley. And what I found in the Sunni Arab population is they 
clearly didn't like us. We have upset the apple cart. They saw 
the government in Baghdad as a Shia-dominated government, 
sectarian government that was against them. And they were 
against the government. But when they saw later on a path, the 
fissures between the Al Qaeda element and the local insurgents 
became more significant over time. And I think when they saw a 
path where they could be a part of the government, then those 
fissures, you know, exploded between the two. And I found them 
to be a very moderate people. Boys and girls went to school 
together in these towns; secular curriculum, annual exams, and 
very dependent upon a lot of government services. And so it is 
hard for me to envision them subjugated to this radical Islamic 
group, ISIS. Just, they were temporarily in line with Al Qaeda, 
and then they broke up. And so what is the prognosis here? And 
I will refer to each one of you.
    Dr. Lynch. Thank you, Congressman.
    I think you are absolutely right about that and about the 
nature of the Iraqi Sunni community and the resentment, both of 
us, and especially of the Shia-dominated government. And I 
think one of the great strategic missed opportunities that we 
have had in the Middle East was that Nouri al-Maliki was unable 
to capitalize on that and to rebuild connections with the Sunni 
community. Instead, he decided to rule in the sectarian way 
going after Sunni, Shia, Sunni leaders, not getting the 
Awakenings forces into the security forces. It was a tragic 
missed opportunity.
    I think that you are also absolutely right about the long-
term implausibility of people like this being willing to live 
under ISIL. The problem right now, though, I think is that the 
sectarianism has become so intense and so deeply engrained. You 
are talking about populations with enormous levels of 
displacement, both internal and refugees; people who have seen 
family members being butchered on sectarian grounds; and an 
enormous amount of mistrust of state institutions like the 
Ministry of the Interior and the Iraqi security forces, which 
makes it very difficult for them to look at the Iraqi 
Government as a partner. And I think that until they are able 
to look at the Iraqi Government and see it as a viable partner, 
then it is going to be difficult for them to make that leap 
that they made back in 2006, 2007.
    That is why I think getting a new Prime Minister in place 
and trying to begin some serious security service reforms, 
institutional reforms, is what you need to do in order to win 
in Iraq. And reversing that sectarianism is going to be 
extraordinarily difficult at this point, but we have to begin 
taking those steps.
    I think the National Guard project that they have begun to 
work on I think is absolutely the right way to do it, something 
which is institutionalized and can't simply be dissolved at the 
stroke of a pen, the way that the promises to incorporate the 
Awakenings were done back in 2008, 2009.
    Mr. Braniff. Thank you, Mr. Congressman.
    I would just reiterate START researcher Mansoor Moaddel has 
done extensive surveys in the Muslim world, and the Iraqi 
population is overwhelmingly secular in how they respond to 
national level polls, even within the last 2 years. And, to me, 
if sectarianism trumps secularism the way it has in Iraq 
because of these sort of identity politics that are being 
leveraged by groups like ISIL, we better make sure that our 
national strategy to address violent extremism in other places 
really pushes back on sectarianism because it is such a 
powerful force. It is a force of nature. And if we don't deal 
with sectarianism, all right, ISIL and AQAM and these groups 
have a relatively easy time forcing people to pick a side 
through violence.
    General Flynn. Really briefly, a lot of lessons learned 
between the way Zarqawi operated and the way al-Baghdadi is 
operating. And that has been a discussion within the ranks of 
the Al Qaeda movement. Okay, so they learned lessons from the 
way Zarqawi did things, and al-Baghdadi is avoiding many of 
those mistakes.
    And then, really, three things. Incredible levels of 
corruption, this is within the governments, okay, in this case, 
Iraq. Lack of inclusiveness, which is very real, and, you know, 
even though the new President that is in there now still there 
is not a sense of that by the people. And just the real 
desperate economic conditions that these people live within, 
and that is just, that is going to be a difficult thing to 
change, but it could change because these countries actually 
have the wealth to provide for their citizens.
    Mr. Coffman. I am out of time. I yield back.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for being here today. Each of you 
have made points throughout this morning about how this 
sectarianism is a driver for violence, how the trust of the 
Sunni tribes and people must be earned in order to take the 
oxygen away that currently exists, especially in Iraq, for 
ISIS. How can this be done with this current strategy? You have 
talked about new leadership in place. You have talked about 
different rhetoric, a different way of doing things, but the 
fact and the reality is that Iran's influence over this current 
government in Iraq continues as it has been. Their ability to 
have any sense of control over the Shia militias and who they 
are attacking and what they are doing does not exist. And 
unless you go to a different model of governance and go away 
from this attachment to this continued policy of one central 
government in Iraq and move to something where you are actually 
truly empowering the Kurds, we are not having to funnel 
everything through the Baghdad government, where, at this 
point, even a small margin of the weapons and ammunition that 
we are sending is getting to them, and empower the Sunnis, and 
empower the Shias in some type of three-state solution, how is 
this current strategy a winning strategy to defeat ISIS, unless 
you get to this core of this issue?
    General Flynn. I will just quickly, I believe that we are 
going to not go back to the way things were. The breakdown of 
the boundaries within this region are going to be incredibly 
difficult to get back to, not impossible, but I just don't see 
that happening any time soon, potentially in my lifetime.
    I would say that Iran is the greater problem. They do not 
see inclusiveness of Sunnis, you know, from the Iranian 
viewpoint. And I think that they, like you, saw in Yemen 
recently with some of the chanting that we saw, you are seeing 
in Iraq things occur that are clearly Iranian influenced and 
against everything that we are trying to do. So I will leave it 
at that.
    Dr. Lynch. Thanks for the question. The problem with Iraq, 
you are absolutely right about the role of Iran in Iraq. It is 
pervasive and it goes beyond the Shia militia. It is at every 
level of the government, every level of the state, the security 
forces, the Kurds. I mean, they have relations with everybody 
in Iraq because they actually have a full-spectrum strategy for 
dealing with a close neighbor.
    I would actually not pose Iran as the primary problem in 
Iraq. I think the militias are a primary problem. And Iran can 
use that instrument when it is useful for them, and if they 
decide that it is not useful for them, then they can begin to 
move to try and shut it down. And I think that the key point is 
going to be that it is impossible to have, as you said, it is 
impossible to have a strategy which is about keeping a unified 
state in Iraq that isn't going to include some kind of tacit, 
or formal, maybe not formal but at least tacit, cooperation 
with Iran. Their role in Iraq is simply too pervasive and too 
real. The security forces can't be disaggregated and only 
working with Sunni units.
    And if you want to tamp down sectarianism, you can't then 
double down on a Sunni-Shia division of Iraq and try and only 
work with the Sunnis and fight against the Shiites. What you 
need to do is to try and bring that country back together, tamp 
down the sectarianism, and have a state based on citizenship. 
There has already been huge progress on a decentralization and 
the Constitution. You know, they are dealing with these issues 
of oil revenues and all these things, and no one is very happy 
with any of the solutions they have come up with, but they are 
working on them. I think that the idea of allowing the Kurds to 
go their own way, I think at this time is not a good one. I 
think that certainly we should continue to support the Pesh. We 
should continue to advocate Kurdish self-interest. But I think 
the Kurdish interests still are to be part of an Iraq in this 
decentralized federal framework. And that is why it is a good 
idea to funnel support, military support and other things, 
through Baghdad.
    In other words, give them what they need, help them in the 
ways they need to be helped, but don't encourage the 
fragmentation of the state. And the key problem there, and I 
will finish, is that you talk about a three-state solution. And 
we have heard about this a quite a lot. There is a fairly 
plausible Shiite sub-state that you could imagine, and there is 
a very plausible Kurdish one. There is no plausible Sunni third 
state, other than the one ISIL has carved out. And that, I 
think, is not in an American interest to create. You need to 
keep the Sunni parts and the Shia parts together in something 
that we are calling Iraq. And so you are going to need to find 
some kind of bargain by which that state can coexist and can 
survive.
    Ms. Gabbard. Thank you, Mr. Chairman.
    The Chairman. Thank you. Dr. Heck.
    Dr. Heck. Thank you, Mr. Chairman.
    Thank you all for being here today. The President recently 
released his 2015 National Security Strategy. And on the White 
House Website, it states that the strategy is ``the blueprint 
for America's leadership in the world--how we address global 
challenges while advancing our Nation's interests, values, and 
vision for the future.''
    On page 3 of the strategy, it says, ``We are leading a 
global campaign and degrading and ultimately defeating the 
Islamic State of Iraq and the Levant.''
    And on page 15, it states, ``We reject the lie that America 
and its allies are at war with Islam.''
    I would disagree with the first statement. I don't think we 
are leading in trying to degrade and ultimately defeat ISIL, 
but I would agree with the second statement that we are not at 
war with all of Islam. We are at war with radical Islam and 
Islamic extremism, yet nowhere in the strategy does that term 
appear. In fact, the only two times that the word ``Islam'' 
appears in the strategy are in the two instances I just 
mentioned, yet climate change appears 19 times.
    I would ask, Do you think the National Security Strategy 
has enough specificity to adequately inform the nested 
documents of the National Defense Strategy and the National 
Military Strategy to actually have a positive impact on 
executing a strategy for degrading and ultimately defeating 
ISIL?
    And, secondly, Dr. Lynch, I would ask in your statement 
about the momentum of ISIL being halted. Just within the last 
24 hours, they have taken control of the city of al-Baghdadi, 
and they are knocking on the door of the Al Asad Air Base, 
where we have 320 Marines in a training capacity. How can you 
say that the momentum has actually been halted?
    Dr. Lynch. In any civil war, those are excellent questions. 
And I really appreciate your opening comment about the, 
validating the idea that we are not at war with Islam is 
extremely important. And, you know, there has been a huge 
debate about whether we should use the term ``Islamic 
extremism'' or ``violent Islam'' or ``extremist Islam'' or 
those sorts of things. I actually fall in the school of 
thinking I don't think it really matters that much what we call 
them. I think this is something that we concern ourselves with 
greatly, but whether we call them ISIL or Daesh or ISIS or Al 
Qaeda, I don't think it matters very much. And I think that 
this notion that it would be interesting to talk about a bit 
more. But I think that forming a strategy is not dependent. I 
think it is semantics there. I really believe that.
    In terms of momentum, I mean, I think if you look at these 
kinds of civil wars, there is constantly going to be a surge 
and a flow and you are going to see movements here, and a 
decline here, and a retreat there. We have been seeing this in 
Syria now for the last 2\1/2\, 3 years. It has basically been a 
strategic stalemate, and, you know, this village gets captured, 
this village gets lost. I think you can't read too much into 
the daily pushes and flows. I think the defeat in Kobane, it 
was big, because this showed that they were not unstoppable. 
They put a lot of resources and propaganda efforts into this 
and they failed. And I think that was big for blocking their 
momentum. I think that we have seen them pulling back from 
Aleppo. We have seen them trying to concentrate some of their 
forces. We have seen, you know, their failure to move into 
Erbil and into Baghdad. And so I wouldn't say, and here I would 
agree with you, there is no sign that we have reversed, that we 
are pushing them back, but we stopped their forward momentum 
and broke that patina of invincibility, which was extremely 
important I think, for the bandwagoning effect. Once they don't 
look invulnerable, that is when those tribes and other factions 
will start believing that it is safe to flip sides again. So I 
think that is how I would describe what is still obviously a 
very fluid situation.
    General Flynn. Yeah, so the National Security Strategy lays 
out the world, which is very complex array of threats. I don't 
believe that the National Security Strategy prioritizes what 
the United States should do about those threats. Prioritizing 
sort of the here and now and then sort of what like what a 
Harry Truman said post-World War II, which was, you know, I 
will quote him, you know, he rightly understood that the 
Soviets were a, quote, ``Animated by a new fanatic faith,'' 
unquote. So we have to prioritize. We have to take this 
strategy, the National Security Strategy, and prioritize inside 
of it against the threats that we are facing. The fact that we 
even use ISIL and the word ``Islamic'' in the framework of 
Islamic State, it actually recognizes that, in fact, in that 
document, in the President's letter on top of that document, he 
uses Islamic State in the Levant. So it recognizes, so we in 
the United States are recognizing the fact that there is 
somebody called Islamic and there is somebody called a state 
inside of the Levant. So, again, we are struggling to define it 
as clearly as we possibly can. And it is a radical version of 
Islam. There is no doubt about it. And we can't not allow 
ourselves to define something that actually they are calling 
themselves in a sense. And so if the enemy is calling 
themselves that, why do we have such a difficult time? And the 
other thing, just as a real small minor thing, but the word or 
the acronym ``Daesh,'' okay, that we throw around now, that 
actually recognizes, the latter part of that acronym it 
describes al-Sham. Al-Sham is the Levant. So it actually, to 
me, in my framework of really trying to understand who it is 
that we are facing, and I have studied these guys. I have dealt 
with them. I have talked to them. They, that actually benefits 
them. So, in a way, we are using an acronym to describe this 
enemy and I think it is because the Iraqis asked us to use it, 
but the acronym actually describes al-Sham, which says you 
basically are controlling the Levant, which is essentially what 
they want to do.
    So we have to be very, very careful about the words that we 
use. When we use words like mujahideen, or jihad, those are 
recognitions of their courage instead of using a word like 
``mufsidun,'' which means you are a you know, that is about as 
an ugly a word as you can call an Arab. We don't use it. We 
should.
    The Chairman. Mr. Smith.
    Mr. Smith. Thank you. Just two follow-ups. One on the 
notion that al-Baghdadi and ISIS is somehow doing better than 
Al Qaeda did in governance. There have been just as many 
stories out there, like I said, Mosul is a disaster, and if I 
am wrong about that, please correct me, but from a governance 
standpoint. And there have been just as many stories of ISIL, 
you know, cutting people's hands off for smoking and alienating 
tribes. I don't really see any evidence that they are doing any 
better in terms of governing Muslims.
    The one thing that they have going for them is the Baghdad 
government. Sunnis have no place else to go because, frankly, I 
haven't seen much improvement with al-Abadi. You know, Maliki 
was terrible, but the Sunnis still look at the Baghdad 
government as, you know, Shiite and basically sectarian. We 
have had, you know, massacres of Sunnis by Shia militia groups 
here recently. I mean, I think that has more to do with the 
fact that Sunnis are unable to break away from al-Baghdadi and 
ISIL than it does that they are governing better. Am I missing 
something? Is there some evidence that they are governing 
better, that they are not doing the same sort of violence 
against their citizens that Al Qaeda in Iraq did before, or are 
they, the Taliban did, for that matter?
    Mr. Braniff. Ranking Member Smith, if I may, thank you for 
the question. I think the biggest difference is that they are 
governing. Even if they are governing poorly, most of the Al 
Qaeda and associated movement have never really tried to 
establish formal governance.
    Mr. Smith. It is a separate point. We are talking a little 
bit about what Al Qaeda in Iraq, Al Qaeda in Iraq did control 
territory before the Anbar Awakening, and they did run shadow 
governments. The Taliban did as well. So where they have 
governed was the comparison. And, in that sense, are they doing 
better than the Taliban did or some of these other Al Qaeda and 
Iraq folks did?
    Mr. Braniff. Perhaps one metric would be the flow of 
foreign fighters into Iraq and Syria. Something about the way 
they are portraying their governance of Iraq and Syria is 
inspiring the largest number of foreign fighters to flow into 
the region. I think it is because they are, quote-unquote, 
living up to the righteous values that they espouse.
    They are not compromising. They are seen as uncompromising. 
They are purifying Islam, these kinds of macho terms. And while 
it is horrific stuff, for the base, as Dr. Lynch mentioned, it 
is a rallying call and that they are calling Muslims to build 
the institutions of the caliphate to take part in this project 
of reestablishing a religious political empire. And that is 
empowering, even if the means by which they are governing is 
appalling. And it is seen as, for some, a more appealing 
alternative than like, as you mentioned, the Maliki government 
and Baghdad.
    Mr. Smith. Yeah, the Maliki alternative. And one final 
point on Guantanamo, the conversation back and forth about 
that. I would not take seriously any argument that says that we 
don't need to detain enemies. We do. The question is, do we 
need to detain them at Guantanamo? Nor would I argue with the 
point that, look, you are not going to close Guantanamo, and 
have, you know, the violent Islamic extremists go, Okay, we are 
good. I understand that. But it is not necessary, is it, to 
detain them at Guantanamo? I mean, the entire reason that 
Guantanamo was set up, was the belief that maybe we could 
somehow sidestep habeas corpus, but the Supreme Court has shut 
that down. Is there any reason that we couldn't take these 
people, as we have in many instances, and detain them here in 
the United States?
    General Flynn. So we definitely need to be able to capture 
because if we only kill, that, to me, is a moral problem.
    Mr. Smith. I got that, but where?
    General Flynn. So you know, when you look at prior to 2003, 
there were many non-Afghans detained in Afghanistan. So, you 
know, I am not going to argue with you where, because I think 
we have to decide. We have to make that decision. But to be 
able to do tactical interrogation----
    Mr. Smith. I got all that. That wasn't my question.
    General Flynn [continuing]. Professionally, you can't, if 
we bring them into the United States and they get read their 
habeas corpus rights, that stops the process of being able to 
get the kind of information that you can get through very 
professionally done interrogations. I am telling you, I have 
seen it.
    Mr. Smith. I have got to tell you, I have heard that 
argument a thousand times.
    General Flynn. I have been involved in thousands of 
interrogation operations to be able to get to that point.
    Mr. Smith. You are telling me that every law enforcement 
personnel in the U.S., every FBI agent, gets no useful 
intelligence out of anybody they capture because once they 
Mirandize them, it is over and they can't get any information 
out of them?
    General Flynn. It is a lot slower. And I have been on both 
sides of it. Ranking Member, I have been on both sides of it. 
And it doesn't mean that we can't have professional law 
enforcement representatives involved in the process----
    Mr. Smith. Right.
    General Flynn [continuing]. From a detention interrogation 
process.
    Mr. Smith. Right. I disagree with you on the fact that 
somehow Miranda instantaneously shuts off the gathering of 
information. But putting that point aside, there is no reason, 
you know, as we have done with other people, you have to do 
that in Guantanamo, too. I mean, the same things apply in both 
places. So----
    General Flynn. True.
    Mr. Smith [continuing]. I guess the central question is, 
there is no reason that we couldn't do the same thing here in 
the U.S. that we do in Guantanamo. Guantanamo does not give us 
any particular interrogation or detention advantage.
    General Flynn. You just have to make sure, I mean, there is 
a timeliness issue, and you know, you have to make sure that 
the conditions are set for that. I mean, again, that is kind of 
a legislative to executive discussion about, if we bring them 
into the United States, what does that mean legally? I am not a 
lawyer. I don't know that. But I just know that there is 
probably going to be a different set of conditions when we 
bring them inside of the United States because we don't have 
designated combat zones anymore.
    Mr. Smith. You can bring them into----
    General Flynn. Wherever they go, we have to be able to 
capture these individuals to be able to get the intelligence 
out of them.
    Mr. Smith. There is no difference at this point between 
Guantanamo and the U.S.
    I yield back.
    The Chairman. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    An interesting discussion about Guantanamo, and I 
absolutely--in my home area, we have the largest Federal prison 
ever. And I would just suggest to you, when you detain these 
folks, whether it is GTMO [Guantanamo] or in the U.S., that is 
the issue, that is going to be the issue to the bad guys and 
their associated friends and fellows. So I think it is, I agree 
with the general, when you bring them back to the U.S., as a 
former law enforcement, it just creates a whole bunch of other 
issues that we have not had to deal with when they are held at 
GTMO.
    The one thing that I am struggling with was the President's 
request for an authorization, and you hit it on the head, 
General, is a clear, comprehensive strategy. And what would 
that look like? I guess that is where I am struggling. What 
does a clear, comprehensive strategy look like in regards to 
dealing with the issue that we have in front of us? Because, 
you know, we had the King of Jordan here. And his comprehensive 
strategy is, you can't just look at ISIS or ISIL. You have got 
to look at across the world in regards to Islamic extremism.
    General Flynn. So, I mean, we talked about this business 
about clearly defining the enemy and making sure that it is 
comprehensive. And I think that those are sort of two parts of 
this. And you have just addressed, certainly, the second one. I 
think the third one is that we have to really take a hard look 
at how we are organized as a nation to deal with the sort of 
the tactical problem of what is happening in Iraq and Syria. 
But we also have to look at how we are organized as a nation to 
deal with the wider longer-term problem of this radical version 
of Islam.
    Now, that is, you know, specifically, it is the Department 
of Defense. It is the, you know, the Department of State, the 
Central Intelligence Agency, and the Intelligence Community as 
it supports our national interest. And then I think we have to 
look at how we are organized internationally. And I have 
really, you know, I use the NATO [North Atlantic Treaty 
Organization] model, you know, as a model, although it has got 
its, you know, shortcomings, but we need to have some sort of 
Arab-world NATO, if you will, like structure, and not deal with 
each one of these countries as though they are individual 
countries dealing with individual problems. They are all 
dealing with those kinds of problems. And I think that we do 
need to put somebody in charge of it. I think that we need to 
put, designate someone in charge that has not only the backing 
of this country and a full line of authority from the President 
of the United States to execute authorities, and it is probably 
civilian-led, but it is just somebody with that kind of, you 
know, gravitas, I guess, but also internationally accepted to 
run this sort of campaign.
    Now, should it be somebody from the U.S.? I believe it 
should be somebody from the U.S. It doesn't need to be, doesn't 
mean that we have to have large numbers of boots on the ground. 
It just means that we have to come together, organize ourselves 
first, make sure that we are organized correctly 
internationally, and then make sure that somebody is in charge 
of this effort, and then, frankly, tell the American public 
that this is going to last for generations. I mean, this is not 
something that is going to go away.
    Mr. Nugent. To the other panelists.
    General Flynn. And the AUMF is not that. It is only a 
component of it.
    Mr. Nugent. And that is, I think, the mistake that people 
think that the AUMF is the comprehensive strategy. It is just 
part of the toolkit in regards to it.
    The other panelists, in regards to a comprehensive 
strategy, do you think today, today, at this point in time, 
that we have a comprehensive strategy? Today.
    Mr. Lynch.
    Dr. Lynch. No, I don't. I think that we have--we did a very 
good job, I think, of assembling a coalition and stopping the 
immediate crisis. And now is the time when we need to formulate 
that long-term strategy. I think your question is exactly 
right. In terms of your specific question about what that 
strategy might look like, I mean, I could repeat the things I 
said before about preventing a clash of civilization and all 
that.
    Mr. Nugent. I appreciate that.
    Dr. Lynch. I don't need to say all of that, but I really 
want to emphasize and second and third something that General 
Flynn said that you--if we are going to have any success in 
dealing with ISIL and with extremism in the Middle East, we 
have to make sure that our allies are on the same page as we 
are, because they have been as much the problem as the 
solution.
    Mr. Nugent. Absolutely.
    Dr. Lynch. Extraordinarily destructive in Syria and abusive 
of human rights. So a comprehensive strategy, I think, has to 
have that component of political reforms and everything else, 
or else it is just spitting into the wind.
    Mr. Nugent. Mr. Braniff.
    Mr. Braniff. I think, thus far, we have been dealing with 
issues in an ad hoc basis, and perhaps that is because of the 
instability associated with the Arab Spring. And, frankly, it 
was a pretty tumultuous few years. I think any strategy has to 
recognize that Al Qaeda and ISIL have----
    Mr. Nugent. We don't have a comprehensive strategy though 
today. Do you believe----
    Mr. Braniff. No, I think Al Qaeda and ISIL have pulled us 
into the realm of nonstate actors where we are largely forced 
to operate in extrajudicial terms and outside of the 
international system where the rules of the game are set up in 
our favor, and we should try to push this back into the 
international system where, again, we have those rules working 
for our favor.
    Mr. Nugent. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank all of our witnesses for being here, in 
particular General Flynn, a fellow Rhode Islander.
    General, welcome back before the committee and thank you 
for your years of service.
    So I would like to, my question would be for Dr. Lynch, and 
also for General Flynn, whoever wants to go first. Clearly, 
this rise of radical violent extremists didn't happen 
overnight. It was allowed to fester in many ways. Maybe it was 
the religious community, for whatever reason, as I understand 
it, was allowed to preach hate and violence, and a lot of the 
leaders in the Middle East kind of looked the other way and for 
whatever reason. So it kind of took a long time to get here. It 
is going to take a long time to get out of it. But let me ask 
you, do the statements from, for example, President el-Sisi, in 
Egypt, which I found surprising, but welcome, a welcome 
statement when he spoke to the religious community there or 
establishing Sunni imams in the greater Middle East who have 
denounced the violence of ISIL or Islamic extremism more 
broadly, do they moderate, or you know, counter the nature of 
the grievances, and the threat from jihadists in the region? Or 
are these steps having the reverse effect of reinforcing the 
jihadist ideology and grievance narrative? Can you comment on 
that?
    Dr. Lynch. I think it is a fantastic question. Thank you. I 
think that the issue with statements like those by General el-
Sisi, or President el-Sisi, is not the statement itself. It is 
that he doesn't really have the standing to issue those things 
because when he is presiding over a fairly repressive police 
state and putting tens of thousands of political dissidents in 
jail, it is very difficult for him to then say, Oh, but you 
must be moderate and you must participate in the political 
system. And so it gets back exactly to the conversation we were 
having a moment ago about the need to understand that if you 
want to have leaders who are capable of making--leaders in the 
Middle East who are capable of making the kinds of statements 
that you and I would very much like to see, they need to have 
the standing from which to do so. And right now they don't. The 
Saudis have been in a very difficult position on this. The 
Egyptians have been in a very difficult position. And so the 
traditional leaders of the Arab world are not in a very strong 
position right now to make the kinds of moves for moderation 
and against extremism that we need to see.
    General Flynn. So, real quickly, this was, this shift in 
the strengthening of this ideology started well before 9/11; 9/
11 just brought it to the fore. I mean, it really was, you 
know, it just showed how dedicated and how long term their 
vision is of what it is that they believe. And I believe that 
President el-Sisi's remarks back in the late December-January 
timeframe, he was talking to the Egyptian people as much as he 
was talking to the Arab world. And we should not lose sight of 
that. So, despite the challenges that Egypt faces internally to 
try to get back to a sense of stability and security, we need 
leaders like that, frankly, more of them around the Arab world 
that are willing to step up and say the kinds of things that he 
said that took a lot of courage. But he also knows, he also 
knows that he has to change inside of their own system, just in 
Egypt alone, to be able to get the people to sort of come back 
around to be more moderate. And they are dealing with some 
very, they are dealing with Al Qaeda, and they are dealing with 
elements of radical, you know, version of the Muslim 
Brotherhood in that country. So I was very heartened when I 
heard President el-Sisi come out and make those remarks.
    Mr. Langevin. Yeah, so are there things that we can focus 
on in our strategy to help encourage that kind of moderation? 
But let me ask you also, given that there are certain actors in 
the region, such as UAE [United Arab Emirates] and Jordan, 
among others, who appear to be supporting U.S. interests, how 
should the United States support and organize these partners in 
the region to serve as potentially moderating influences within 
the greater Middle East?
    Mr. Braniff. Thank you, Congressman.
    So I think one thing we can do, we know that the U.S. 
Government is gun-shy to talk about what is moderate Islam, and 
what should Islam be and other leaders in the Muslim world 
don't always have the credibility to talk about moderating 
Islam and have actually that carry authority. But one thing 
that leaders can do is try to collectively decrease the 
perceived social legitimacy of violence, which is not talking 
about what kind of Islam is right or wrong, but it is lowering 
that threshold that sparks sort of revulsion against terrorist 
organizations so that they step over that line more quickly. 
And this is something that I think we can do collectively.
    General Flynn. Let me add one other comment, and that has 
to do with the rule of law. And I think that is probably a 
strategic advantage that this country has. If there is one 
thing that we need to export around the world, not so much 
democracy, but the idea of rule of law, so people are governed 
by norms and behaviors that are acceptable internationally. And 
I think that that is a problem in this part of the world right 
now.
    Mr. Langevin. Thank you all.
    I yield back.
    The Chairman. As you all know, they have called votes. I 
think we will have time probably to get two more folks in.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman.
    General Flynn, first of all, I notice you went to 
University of Rhode Island.
    General Flynn. First land-grant university in the country, 
established by--Abraham Lincoln actually established that law.
    Mr. Cook. I know, but my daughter went there and my son-in-
law. I just want to know why the out-of-state tuition is so 
high.
    General Flynn. I defer to my colleague.
    Mr. Cook. Going back to Dr. Heck's question about the 
airfield, which is in the news right now, and everything else. 
And I think a lot of us are wondering whether this is a 
symbolic thing in terms of a targeting in terms of mortars and 
indirect fire weapons because of the fact that there are 
marines there, a chance to embarrass the Marines. As you know, 
Fallujah I think was a major, major political propaganda 
victory for them because of the number of soldiers, sailors, 
and marines that were killed in that city. And I am trying to 
see if you had a take on whether psychologically, that would be 
a huge victory if, you know, they had tremendous casualties or 
what have you. And that is the number one press story, I think. 
Can you comment on that?
    And secondly, I want you to address our lack of human 
intelligence. I know you talked about feedback from prisoners, 
but thank you.
    General Flynn. Yeah. So the fact that this tactical action 
by ISIS is going on right now in, essentially, the village or 
town of Baghdadi, is a strategic victory for them. It is 
definitely a strategic information victory for them. And they 
are very close in to Al Asad, and there has been, you know, I 
have been to Al Asad a number of times. We operated out of 
there very effectively.
    If I were those marines in there, I would, you know, be 
looking to make sure that we are absolutely within, that we 
have the rules of engagement very clearly understood to be able 
to deal with anything that happens against those perimeters of 
that particular base. What I would love to see? I would love to 
see an unleashing of some Iraqi force with the support of our 
U.S. Marines to go after and retake that little village because 
that would be doable. And it would be something that the Iraqis 
could actually do with the support of our U.S. Marine forces 
that are in Al Asad.
    In terms of HUMINT, we lack the kind of HUMINT, human 
intelligence, that we need, that we used to have actually 
pretty, you know, we developed it over time, but we don't have 
that kind of level that we need today. And interrogations is 
actually a part of that.
    Mr. Cook. Since I have still got 2 minutes, I just wanted, 
you talked about the plans and everything like that. I used to 
be a plans officer 100 years ago, and we are talking about the 
budget and everything else. And one of my big arguments is the 
tempo of ops compared with, is just out of control. You know, 
you have got to do this, this, this, and this. We used to have 
a vault with all of the op plans in it and everything else. And 
I am wondering, are we out of control because we have a brigade 
for this; we have a squadron for this, we just don't have 
enough military forces to go around for all of the commitments. 
And if you could briefly comment on that.
    General Flynn. Right. We do not. We do not have, for the, 
if you look at the menu that the National Security Strategy 
currently is in terms of the layout of threats around the 
world, and particularly this problem that we are facing right 
now, our military is so stretched thin and, frankly, 
underresourced, and parts of it are not trained to the level 
that we would expect them to be, that the American public would 
expect them to be at. And this sequestration, and you all know 
this, is just choking the readiness of the United States 
military. And we need to decide what kind of military do we 
want to have given the threats that we face? And right now it 
has grown. It has gotten too small, and if we continue down 
this path, it is going to get even smaller, and that is a 
danger to our national security. So----
    Mr. Cook. Thank you for your service.
    I yield back.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. I will try to be 
brief.
    And, Dr. Lynch, I want to go to one of the statements that 
you made about the fact that terrorism is ebbing and flowing. 
We shouldn't pay too much attention to it. That is just going 
to happen the way the Middle East is, if you will. But I would 
like to have this submitted for the record and wonder if you 
have seen this.
    [The information referred to is retained in committee files 
and can be viewed upon request.]
    Mr. Scott. This is the DIA Intelligence Assessment from 
2004 to 2014. In 2004, we were dealing with 21 total terrorist 
groups in 18 total countries. And today we are dealing with 41 
terrorist groups in 24 countries. I certainly respect your 
opinion and agree with it on many things, but I would suggest 
that that is more than an ebb and flow. That is a significant 
growth and an ideology that is dangerous to the world.
    What would you assess the population of the Islamic 
extremists or terrorist--whatever we want to call them--in Iraq 
to be, the total number of them?
    Dr. Lynch. I thank you, Congressman. I want to clarify. 
When I was talking about ebb and flow, I was talking about 
civil war dynamics and not terrorism. I was talking about the 
battle, the fighting on the ground in Syria, specifically. So I 
am sorry for that confusion.
    Mr. Scott. And, for the record, you know, the U.S. working 
to undermine Assad and move him out, I have read some of your 
statements on--I personally think the U.S. made a mistake. And 
when we undermine those leaders in those countries, we end up 
creating a vacuum that allows these extremist groups to expand. 
But I have read some of your statements there. But the total 
number for Iraq, if you would?
    Dr. Lynch. Right. I just wanted to clarify that because the 
ebb and flow is really about the civil wars. And the question 
of whether we should have gone after Assad is a question for 
another day.
    [The information referred to can be found in the Appendix 
on page 79.]
    Dr. Lynch. I would say that, you know, if you go country by 
country, you get wildly different estimates. So, for example, 
there is an Islamic State affiliate supposedly in Algeria, 
which might have 20 people in it.
    Mr. Scott. If I can, but look----
    Dr. Lynch. So, in Iraq, what I would say is--that was your 
specific question?
    Mr. Scott. Sure.
    Dr. Lynch. You might have something along the lines of--
what would you say, Bill--you know, maybe 5,000 dedicated ISIS 
or ISIL fighters combined with a whole set of local forces who 
have aligned with them.
    Mr. Scott. Let's use that number. I am trying to move fast 
because I want to give my colleague the opportunity to ask her 
questions as well. How many fighting-age men are in that 
country?
    Dr. Lynch. Good question. Seventeen million, maybe. Fifteen 
million.
    Mr. Scott. Let's first--okay. I will use whatever number.
    Dr. Lynch. But those are Kurds, Sunnis, and Shiites, and 
therefore, so if you are talking only about the Sunni 
community----
    Mr. Scott. Here is my point, and this is what I want to 
come at you on, General, if there are 5,000 Islamic extremist 
terrorists, whatever we want to call them, inside a country 
that has 5 million fighting-age men, no matter what battle we 
win, if we get the rules of engagement right, they have got--if 
they are moderates--that is a 50,000-to-1 margin. And if 50,000 
to 1 isn't enough of an advantage, then what is? So this is 
where--this is why so many people in our part of the world 
identify this as Islam because, clearly, 50,000 could overrun 1 
if they wanted to.
    So, General Flynn, my question for you specifically, if we 
get the rules of engagement right--which I certainly don't 
trust the President on--but if we get the rules of engagement 
right, there is no doubt in my mind that we can win any battle 
over there. But if they in Iraq have a 50,000-to-1 margin 
versus the Islamic terrorists and they can't control that, what 
good can we do?
    General Flynn. Yeah, so I was asked a question back in 
2002, when I was first in Afghanistan, and I was asked how many 
enemy are we facing in Afghanistan at that time, 2002? This was 
in April-May timeframe 2002. And I said, we are looking at 
about 35,000. So the next question was, Okay, so if we kill or 
capture all 35,000, can we go home? Do we win? And the next 
part of that answer was, no, because there is another half a 
million on the other side of the border in this place called 
the FATA [Federally Administered Tribal Areas]. So it is the 
same sort of analogy today. We can capture and kill all day 
long, but until we deal with, you know, these others that are 
there, these other millions or whatever that number is, we are 
going to be at this a long time. And that is why the military 
component of this makes us feel good when we do something, we 
kill somebody; we get a leader. But it is all the others that 
are there, you know, ready to join this movement and fight 
against our value system, and that is just something that we 
are going to have to--that is the wider strategy that we need.
    Mr. Scott. And that is why I think training and equipping 
and supporting our allies becomes the most important part of 
this strategy.
    General Flynn. Exactly, across the region, across the 
region.
    Mr. Scott. Absolutely.
    The Chairman. Ms. McSally, I think we have got time for a 
couple of questions if you would like to go ahead.
    Ms. McSally. Thank you, Mr. Chairman.
    And thank you all for your testimony. It has been very 
informative. A lot of my questions have been answered.
    A quick question about trends in Africa. I was a part of a 
team at U.S. Africa Command running current operations there. 
And just your comments, we talked a little bit about Boko 
Haram, but AQAM [Al Qaeda and associated movements] and Al 
Shabaab, and the trends you are seeing with those 
organizations, and you know, there are plenty of ungoverned 
spaces that are potential--we have seen foreign fighters flow 
in and out in the past when many people weren't paying 
attention. So any comments on the trends going on in the rest 
of those organizations on the African Continent?
    Dr. Lynch. Well, I would--I will defer to Bill on a lot of 
the details. The one I will talk about is Libya and the effect 
that that is having. I think that you are seeing the emergence 
of what looks like an Islamic State affiliate in Libya. It is a 
completely ungoverned space, and it is now a civil war, total 
polarization. And that is having destabilizing effects on both 
east and west. The Egyptians are extremely worried about it. 
Tunisians are very, very worried about it. And so, you know, 
basically, the lesson is you get the collapse of the state, and 
it opens the space for these groups. And so I am very worried 
about Libya for all kinds of reasons, but that is one of them.
    Ms. McSally. Thanks.
    General Flynn. Briefly, because I know Bill has something 
to offer on this as well.
    The negative is that it is rapidly growing. Okay, so it is 
getting worse, particularly those couple of areas that you just 
talked about. And the other part is, as Marc just highlighted, 
the breakdown of the nation-state, or the order of the nation-
state, if you will, in parts of that region.
    The positive is that there are countries that understand it 
and are trying to come to grips with it, and that is more down 
in the--you know, I mean, there is a number of them. These 
seven, I think it is seven countries that are trying to work 
against Boko Haram right now that have come together. There are 
some economies there, particularly down in the central and 
southern part of Africa that are good models for the rest of 
Africa, but the size of the population in the 15- to 30-year-
old category of young men that have nothing better to do than 
to join these groups is probably the fastest growing population 
demographic on the planet today.
    Ms. McSally. Exactly. Great, thank you.
    And I yield back. I know we have got to go vote. Thank you, 
Mr. Chairman. Thanks for your time.
    The Chairman. I thank the gentlelady, and thank you all for 
being here. As many topics as we got to today, we didn't get to 
everything.
    I am sorry, Mr. Braniff, did you have something you wanted 
to add on that last point?
    Mr. Braniff. Thank you, Mr. Chairman.
    Thank you for the question. Al Shabaab conducted twice as 
many attacks in the first 9 months of 2014 as they did in all 
of 2013. Boko Haram will likely be either the most or the 
second most lethal terrorist organization in 2014 when we 
finalize our data--although they are not the most active in 
terms of number of attacks, which means that they are, 
unfortunately, quite efficient in creating fatalities per 
attack. And, of course, we just saw their first attack in Chad 
a day or so ago and continued attacks in now Cameroon. And 
there is another group in Nigeria that is of among the 10 most 
active groups of 2014, a group called the Fulani--associated 
with the Fulan tribes. And so what we are seeing is increased 
levels of terrorist attacks and fatalities, both in West Africa 
and in East Africa, associated with Shabaab and a lot of 
fluidity in North Africa.
    The Chairman. Thank you. And I think it is helpful to have 
some objective measurements to gauge these things. They don't 
tell us the whole story, but they do enable us to compare, to 
compare trends.
    The other topic we didn't really get to today which I think 
we need to understand better is this competition among groups. 
You alluded to it. We didn't quite have a chance to get to it, 
but I think that is a very significant factor that we have not 
fully explored.
    But we did get to a number of things. Again, I apologize. 
We are getting cut short a little bit because of votes, but I 
very much appreciate each of you being here and assisting the 
committee.
    And, with that, the hearing stands adjourned.
    [Whereupon, at 10:58 a.m., the committee was adjourned.]

     
=======================================================================


                            A P P E N D I X

                           February 13, 2015


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 13, 2015

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 13, 2015

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT

    Dr. Lynch. I did not intend by this that we should not pay 
attention to terrorism or to the strategic issues in the Middle East. 
My point was that we should not overreact to the daily news from fluid 
combat zones such as Syria or Iraq. Over the course of such a 
protracted civil war, factions will advance and retreat and the 
violence will ebb and flow without it making a strategically 
significant difference. My call here was for us to focus on the big 
picture with regard to the strategic context in theaters such as Syria 
and to not craft policies based on short-term developments on the 
ground which do not fundamentally alter that strategic context.   [See 
page 35.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 13, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. PALAZZO

    Mr. Palazzo. The Islamic Republic of Iran has continued to be a 
thorn in the side of the United States because of their failure to halt 
the expansion of their nuclear program as well as the support of 
terrorist groups like Hamas, we know about the threats that they pose 
to our strongest ally in the region, Israel, but I am concerned that 
their influence is expanding and a destabilization of the region as a 
whole leaves a void that Iran would love to fill. Does Islamic 
extremism in the region open the door for an unfriendly government to 
fill that void? Do you see any expansion or desire for expansion on the 
horizon for Iran across the Middle East given the fragility of the 
region? How do negotiations with Iran affect an already fragile balance 
in the region? What would you like to see with regard to the strategy 
to keep Iran at bay? How does a nuclear Iran affect America and allies 
in the region?
    What would you like to see with regard to the strategy to keep Iran 
at bay?
    General Flynn. longer the Syrian conflict persists, and the more 
the United States and the West writ large are seen as complicit in the 
survival of the Assad regime, the less productive relations between a 
future Syrian state and the United States are likely to be. However, 
this resentment, or lack of engagement, will not necessarily take the 
form of ``hostility.'' Regional forces including U.S. Gulf allies, 
Turkey, Saudi Arabia, and Qatar, are unlikely to allow extremist groups 
to permeate governing coalitions, and groups that want to establish an 
``Islamic State'' or state governed exclusively by Islamic Law (such as 
Jabhat Al Nusra or Ahrar Al Sham) are unlikely to be empowered by 
either regional or international political processes that would provide 
for a transition of power. Without such a political process, no rebel 
coalition (whether hostile or friendly to the United States) is likely 
to take political control through military force. U.S. engagement and 
support of the Etilaf/Interim Government could produce positive 
relations should either of those groups be involved in the governance 
of future Syria, but these institutions are increasingly ineffectual 
and cut-off from regular Syrians. It is also important to note that 
U.S. lethal and non-lethal aid to the moderate opposition is perceived 
by moderate forces on the ground as lack-luster, and designed to 
prolong the conflict not stop the crimes of the Assad regime. This 
means that even ideologically moderate forces, supportive of a secular 
state, may not view the United States as a reliable and/or consistent 
partner. However, these groups could also be easily won over through 
more forceful U.S. support. The remnants of the regime, on the other 
hand, and their backers in Moscow and Tehran, are likely to persist in 
their hostility towards the United States regardless of the outcome of 
the conflict or U.S. positioning.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ASHFORD
    Mr. Ashford. Some have raised concerns that U.S. citizens are 
traveling to fight alongside terrorist organizations, specifically 
ISIL, and then returning to the United States. How should we deal with 
such a threat?
    General Flynn. The United States will need effective cooperation 
with regional states, particularly Turkey, so that these partners can 
track the activities of Americans either within their states, or 
traveling across the border to Syria. Along with Turkey, the relevant 
partners will be Iraq, Jordan and Lebanon. All of these states, 
sometimes from opposite directions, may take exception to the current 
U.S. role in the conflict, and anti-terror cooperation may not be ideal 
(as is the situation currently--simply due to loss of trust). That 
said, currently, cooperation with Jordan and Iraq seems somewhat 
effective, given the anti-Islamic State of Iraq and the Levant (ISIL) 
focus shared by the three states. Turkey is both the nation most 
unhappy with current U.S. policy (and they are very unhappy), and most 
aware of Americans traveling inside and outside of Syria from their 
southern border. Some political concessions may need to be made in 
order to garner more cooperation and intelligence sharing from the 
Turks, but this could take a variety of forms, including moderate 
adjustments in U.S. rhetoric and/or policy towards the Syrian regime. 
Turkey seems to have made noise that it is at least resigned to the 
U.S.-Iran deal (a deal that I personally believe places our national 
security at great risk), yet this development should not be a barrier 
to security cooperation.
    Mr. Ashford. Given the open travel policies between the U.S. and 
European nations, what is the threat posed by European nationals 
subscribing to Islamic extremism entering the United States?
    General Flynn. The geographic positioning of Europe makes the 
direct threat from European nationals inside the United States 
relatively low. Not only do these actors have access to European 
targets, they are also much closer to the Middle East, and more likely 
to travel there to be at the heart of conflicts, rather than travel to 
the United States. Since 9/11, the vast majority of European extremists 
carrying out attacks have done so either in their European host 
country, or back in the Middle East. This is in part because the 
political grievances of young Muslims in Europe often have to do with 
perceived slights against their religion/community in Europe, as well 
as deficiencies in the immigration process and the machinations of the 
welfare state. These grievances have little application to the United 
States. There is also certainly a sense that Western actors, led by the 
United States, are at war with Islam, and that this state of affairs 
requires retributive action. However, while many European extremists 
have traveled to Iraq or Syria to face Americans and or their supposed 
proxies, few have made their way to the United States. All said, using 
``European jihadists'' may present Al Qaeda and Associated Movements 
(AQAM) organizations with an opportunity and a means by which to 
conduct attacks against America--so our guard against known Syrian or 
Iraqi travelers should remain high.
    Mr. Ashford. Some have raised concerns that U.S. citizens are 
traveling to fight alongside terrorist organizations, specifically 
ISIL, and then returning to the United States. How should we deal with 
such a threat?
    Mr. Braniff. START is currently engaged in a data collection effort 
funded by the Science and Technology Directorate of the Department of 
Homeland Security to determine if there are salient warning signs, 
patterns of behavior, or characteristics associated with an individual 
being recruited to become or choosing to become a foreign fighter, and/
or choosing to return to the United States following travel abroad in 
order to conduct an attack. START believes that it is essential for the 
government to invest in datasets that are enhanced over time, providing 
a continually improving empirical basis upon which to inform 
counterterrorism policy and practice.
    START is also soliciting funding to utilize our Geospatial 
Information Sciences (GIS) research team to identify likely routes for 
ingress to and egress from territory controlled by the Islamic State of 
Iraq and Syria (ISIS) using probabilistic analysis. This kind of 
analysis can help identify locations where governments can place their 
limited resources to intervene recruits on their way to the 
battlefield, or veterans on their way from the battlefield to other 
locations. As more data about foreign fighter flows is incorporated 
into the model, the model would become more valuable to 
counterterrorism practitioners. A GIS platform could serve as a vehicle 
to overcome one of the largest problems regarding the foreign fighter 
issue, that of information sharing, and help to create a common 
operating picture for the interagency or the international community.
    Aside from supporting empirical approaches to this important 
problem, the government should prioritize its intelligence and 
applicable military and federal law enforcement assets on egress from 
Iraq and Syria, as veteran foreign fighters exposed to ISIS's ideology, 
tactical preferences, and targeting preferences pose a significant 
threat, not just to the homeland, but to other volatile regions where 
ISIS may seek to destabilize regimes and engage in internecine 
violence. Domestically, the government should focus on empowering 
communities to work to minimize the attractiveness of ISIS's 
recruitment efforts by engaging in awareness raising, prevention, and 
intervention programming.
    Mr. Ashford. Given the open travel policies between the U.S. and 
European nations, what is the threat posed by European nationals 
subscribing to Islamic extremism entering the United States?
    Mr. Braniff. There are several reasons why a European national 
subscribing to an extremist ideology may seek to enter the United 
States to conduct an attack:
    They may be instructed to travel to the United States by a person 
of authority in a terrorist organization who feels that this European 
citizen has the best chance of successfully traveling to and operating 
within the United States.
    They may decide for themselves that the United States is playing a 
leading role in counterterrorism efforts and is therefore a more 
important target than their European country of origin;
    If they feel that they are ``on the radar'' in their country of 
origin, they may believe that they have greater freedom of maneuver in 
a different country where the authorities may not have access to 
information about them.
        This would likely be a miscalculation if they are on their 
        government's radar, as crossing international borders provides 
        an important opportunity for interdiction.
        It may not be a miscalculation if they have raised the 
        suspicion of their respective community, but not yet attracted 
        attention from their government. While it is certainly possible 
        that a European national could enter the United States to 
        conduct an attack, it is more likely that individuals 
        radicalized to violence would have greater opportunity to 
        conduct an attack in their home country, and that traveling 
        abroad for the purpose of the attack would expose them to 
        greater risk. While not perfect, tools like the no-fly-list do 
        serve as a deterrent.
    Mr. Ashford. Given the open travel policies between the U.S. and 
European nations, what is the threat posed by European nationals 
subscribing to Islamic extremism entering the United States?
    Dr. Lynch. European nationals affiliated or sympathizing with 
Islamist extremist groups, whether the Islamic State of Iraq and the 
Levant or Al Qaeda or other organizations, do pose an obvious, albeit 
limited, potential threat to the United States. The number of European 
nationals traveling to Syria to fight with jihadist groups is genuinely 
alarming. This threat can be mitigated through cooperated policing and 
intelligence sharing with European partners, however.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. Has ISIL already displaced Al Qaeda as the leader in 
the global jihad movement? Which of these two entities poses a greater 
risk to the U.S. homeland and our assets overseas?
    General Flynn. Despite the rapid rise of the Islamic State of Iraq 
and the Levant (ISIL), Al Qaeda remains an important player both in 
Syria and Iraq, and the global Jihad movement. In many ways, the rapid 
rise of ISIL is linked to its inherent vulnerabilities. For example, 
ISIL has forgone some of the international financing operations that 
allow Al Qaeda to survive, choosing to pursue a more independent war 
economy that makes the group less beholden to international backers. 
However, this war economy relies on further seizures of territory as 
well as continuing to hold on to current oil assets. While Assad and 
the international coalition take oil assets back from ISIL in Syria, 
Iraqi forces are tamping down on ISIL's tax base by taking back 
territory in Iraq. ISIL may still be expanding in sections of both 
Syria and Iraq, but these areas are less reliable sources of income. 
While the international coalition's campaign can certainly not be said 
to be `working' the ISIL economic model relies on perpetual rapid 
expansion in a manner that is simply unsustainable. http://
www.businessinsider.com/tafrikinomics-how-isis-funds-its-caliphate-
2015-3 Further, by declaring a caliphate with provincial capitals, ISIL 
has made its territory manifest, and thus painted a target on its own 
back. Even while international coalition strikes are having a marginal 
effect (and they are marginal), it seems unlikely that regional and 
international powers will tolerate the group's presence indefinitely. 
Al Qaeda, which still exists somewhat underground, may also have a more 
sustainable model in this sense. One thing to keep in mind regarding 
ISIL is the existence of a strategic vulnerability. Among other 
strategic considerations and components, to defeat ISIL, we must 
consider isolating and limiting them to their current geographic 
dimensions they currently control and destroy them in detail. The 
longer this struggle goes on, the more geography they will dominate and 
the stronger the group will grow. In addition, even many literalist 
Salafists find ISIL actions to be beyond the pale, and out of step with 
even historic jihadist interpretations of scripture. For example, Al 
Qaeda has taken aggressive steps in recent years to curb their own 
attacks that were perceived as killing innocent Muslims because of the 
way it was affecting the group's popularity. ISIL has made no such 
concessions, and in fact, these differences of opinions contributed to 
the ISIL-Jabhat al-Nusra split in Syria. Further, many Muslims object 
to ISIL's self-aggrandizement and placement of their own project in the 
historical canon of Islam as arrogant, and out of step with the more 
modest self-conceptualization of groups like Al Qaeda. Despite the 
built in vulnerabilities tied to the ambition of the ISIL project, 
there is nothing to say that the group couldn't go underground 
following defeats in the field and adopt a more Al Qaeda-like modus 
operandi. If this happened, ISIL could possibly steal some of Al 
Qaeda's more traditional support due to their historic accomplishments. 
Crucially, both groups will be able to continue to thrive, occupy 
territory, and plan attacks against Western targets undetected as long 
as the Middle East is home to multiple conflicts and large swaths of 
ungovernable territory. The conflicts in Iraq, Syria, Yemen, and Libya, 
civil strife in Egypt (who we should be supporting far more than we 
are), ungoverned spaces now in parts of Afghanistan and Pakistan as 
well as parts of Mali, all provide both safe-havens and recruiting 
pools for both groups, and this is unlikely to change in the short-
term. As such, the primary U.S. focus should be ending these regional 
conflicts, and fostering inclusive, pluralistic governance that makes 
it harder for terrorists to find sympathy for their extreme ideologies. 
These political processes would also likely have to include some avenue 
for reigning in Iranian activity in the region, which serves as a 
primary antagonist of Sunni-Arab communities, and in so doing creates 
sympathy for extremist groups. The latter issue represents 
(potentially) the single biggest threat to Middle East stability. The 
more the Islamic Republic of Iran is allowed (and enabled to a degree) 
to expand their influence in the broader Middle East, the longer this 
regional conflict is likely to last, eventually turning into a far more 
strategic and existential problem for the United States and many of our 
closest allies and partners.
    Mr. Shuster. Are you concerned that an Authorization for Use of 
Military Force with a clear expiration date and limitations on ground 
forces such as the one proposed by the president will embolden 
extremists who know that American military response is handicapped?
    General Flynn. [No answer was available at the time of printing.]
    Mr. Shuster. Mr. Braniff, you state in your testimony that ``as the 
international security community hones in on ISIL it could result in 
increased freedom of maneuver for Al Qaeda in the short term, the very 
time when the crisis of legitimacy brought on by ISIL has created a 
tremendous incentive for Al Qaeda to conduct a successful attack 
against the West.'' What sort of strategy do you envision would allow 
the United States to prevent such a scenario from occurring?
    Mr. Braniff. This aspect of my testimony was meant to underscore 
the importance of maintaining pressure on Al Qaeda and its Associated 
Movements (AQAM), as opposed to advocating for a sea change in U.S. 
strategy as it pertains to preventing attacks on the homeland. The 
intelligence and special operations communities need to remain vigilant 
to threats posed by AQAM as they have been.
    However, playing defense, no matter how vigilant that defense may 
be, is necessary but not sufficient to manage the threat of violent 
extremism more broadly. Similarly, the disruption afforded by drone 
strikes and other kinetic attacks on extremist networks abroad may be 
operationally effective in the short term, but does not amount to a 
strategy. In parallel with these efforts, the United States must enlist 
the support and enhance the capabilities of Sunni governments and 
communities abroad, while avoiding stoking the fires of sectarian 
tension that ultimately work in the favor of violent sectarian 
extremists, whether they are Sunni or Shia. Only Sunni actors can 
successfully marginalize violent Sunni extremists. A successful 
strategy hinges on our ability to build regional partnerships to 
address regional threats (beyond the U.S. government's traditional bi-
lateral approach to capacity building), to train and equip our partners 
in a timely and sustainable fashion, and to signal that our support of 
those efforts can be counted on consistently and over time--``across 
the aisle'' and across our executive and legislative branches.
    In addition, I fully support the domestic focus on empowering 
communities to prevent violent extremism from taking root. START's 
research and experience working with law enforcement organizations, 
educators and non-governmental organizations suggest that these 
practices, typically referred to as ``Countering Violent Extremism'' 
programming, or CVE, are pragmatic and appropriate for the domestic 
setting for at least three reasons:
    <bullet>  Law enforcement organizations do not have the capability 
to manage the signal to noise ratio associated with pinpointing who may 
be engaged in ideologically motivated criminal behaviors within the 
much larger set of individuals who may be flirting with extremist 
(albeit constitutionally protected) ideas. Community members, on the 
other hand, have more intimate knowledge of one another and are better 
placed to identify and intervene with at-risk individuals before they 
engage in ideologically motivated crime.
    <bullet>  In addition to being more effective, it is more 
appropriate for community members or groups to operate in the pre-
criminal space than it is for the law enforcement or intelligence 
community to operate in the pre-criminal space given the protections 
and values enshrined in the U.S. Constitution.
    <bullet>  Finally, many of the practices that can help make 
individuals and communities resistant to the appeals of violent 
extremist ideologies can also enhance resilience and civil society in 
the face of other serious challenges, such as drug abuse, gang violence 
or poorly integrated communities. Domestic policies designed to empower 
civil society and community resilience are in our collective best 
interests.
    Mr. Shuster. Has ISIL already displaced Al Qaeda as the leader in 
the global jihad movement? Which of these two entities poses a greater 
risk to the U.S. homeland and our assets overseas?
    Mr. Braniff. The Islamic State of Iraq and the Levant (ISIL) has 
eclipsed Al Qaeda as the most important terrorist organization within 
the global jihadist movement, but that does not mean that Al Qaeda and 
its Associated Movement (AQAM) will subordinate themselves to ISIL, 
will relent in their efforts to attack U.S. national interests, or that 
AQAM cannot emerge from this competition as the preeminent current in 
the jihadist landscape.
    As stated in my testimony, AQAM's attrition strategy, while not 
cogent or directed, will benefit from the escalated levels of violence 
in hot spots across the Muslim world where ISIL and AQAM proliferate 
and compete; U.S. national interests will be more difficult to pursue 
in these places and Americans may grow weary of the effort to remain 
engaged in what appear to be violent and intractable problems.
    AQAM may also appear to be a more legitimate standard bearer than 
ISIL given ISIL's propensity for Muslim-on-Muslim violence, should they 
fail to live up to their promises of building a triumphant and 
sustainable caliphate, or due to recent assertions/revelations put 
forth by Der Speigel reporter Christoph Reuter in his recent article, 
``The Terror Strategist: Secret Files Reveal the Structure of Islamic 
State'' regarding ISIL's disingenuous and manipulative use of religion 
as a ruse to advance the agenda of former Baathists seeking to regain 
power.
    Having just made the case that the threat of AQAM should not be 
discounted, I would argue that ISIL poses a greater risk to the U.S. 
homeland and our assets overseas, not to mention our allies overseas. 
They have a greater network of foreign fighters to mobilize. They are 
well financed, organized and trained. In addition, my assumption is 
that the U.S. Government has less information and fewer, less mature 
intelligence collection capabilities pertaining to ISIL in Syria due to 
the civil war than it has regarding many of the Al Qaeda affiliates 
that have been actively targeted by the U.S. Government for years.
    Mr. Shuster. Are you concerned that an Authorization for Use of 
Military Force with a clear expiration date and limitations on ground 
forces such as the one proposed by the president will embolden 
extremists who know that American military response is handicapped?
    Mr. Braniff. From a practical standpoint, I am concerned that a 
limited Authorization for the Use of Military Force (AUMF) will take 
military options off of the table in a very fluid environment in which 
I anticipate the already high levels of terrorist violence and 
sectarian tension will increase. Additionally, I believe it is 
important to signal to our Sunni allies in the region that we are 
committed to helping them marginalize violent Sunni extremists 
consistently and over time, ``across the aisle'' and across the 
executive and legislative branches. They are many political 
considerations to balance, but I argue that only Sunni governments and 
communities can ultimately marginalize violent Sunni extremists. If 
this is true, U.S. strategy and policy should signal our unequivocal 
commitment to our Sunni allies.
    Mr. Shuster. You state, ``The U.S. should continue to support 
military efforts and political reforms in Iraq'' and that we ``should 
support allies under extreme pressure such as Jordan.'' Given that the 
current administration has also shifted the United States' strategic 
approach within the Middle East from large-scale deployment of armed 
forces to ``train, advise, and assist'' and ``building partnership 
capacity,'' how can we further utilize our industrial base capacity to 
provide our allies and partners with the munitions they need to defeat 
threats like ISIL?
    Dr. Lynch. The United States has provided significant amounts of 
arms and assistance to its partners in the region. The primary problem 
is less the ability or willingness to provide weapons to legitimate 
partners, than the absence of limitations on the availability of 
legitimate partners. The United States should avoid arming governments 
or organizations which systemically violate human rights or who are 
demonstrably likely to use weapons in ways contrary to U.S. interests. 
The threat of the Islamic State of Iraq and the Levant should not lead 
the United States to ignore hard-earned lessons about the potential 
negative consequences of providing arms and munitions to governments 
and organizations that do not meet such standards of legitimacy.
    Mr. Shuster. Has ISIL already displaced Al Qaeda as the leader in 
the global jihad movement? Which of these two entities poses a greater 
risk to the U.S. homeland and our assets overseas?
    Dr. Lynch. Both the Islamic State of Iraq and the Levant (ISIL) and 
Al Qaeda continue to be active and powerful organizations within 
specific domains. They share the same basic ideological orientations, 
despite their competition. Both Al Qaeda and ISIL have shifted in 
recent years towards a strategy of seizing and controlling territory, 
rather than the older Al Qaeda model of deterritorialized, 
transnational terrorist attacks. Both seek to appeal to the very small 
number of Muslims attracted to the ideas of global jihad, and both 
could inspire such radical individuals and groups to carry out acts of 
violence. Since the death of Osama bin Laden, Al Qaeda Central has 
declined in influence and centrality to the global jihadist movement. 
Several of its affiliates, particularly Al Qaeda in the Arabian 
Peninsula (Yemen) and Jabhat al-Nusra (Syria) remain strong and growing 
organizations on the ground. ISIL has attempted to parlay its dramatic 
advances in Iraq and Syria into leadership of similar organizations in 
other arenas, but with limited success. As it struggles to sustain its 
control over its Syrian and Iraqi territories under sustained coalition 
pressure, ISIL will likely lose momentum and appeal more broadly. The 
balance between the two organizations is therefore somewhat fluid, and 
related to events in distinct arenas. There is a real risk that their 
competition will lead one or both to attempt spectacular terrorist 
attacks against the United States or its allies in order to advance its 
reputation within these jihadist circles.
    Mr. Shuster. Are you concerned that an Authorization for Use of 
Military Force with a clear expiration date and limitations on ground 
forces such as the one proposed by the president will embolden 
extremists who know that American military response is handicapped?
    Dr. Lynch. No. The greater danger to the United States, when faced 
with such complex, open-ended wars, without evident endgame is that it 
be dragged in to a ruinous quagmire. The risk of mission-creep is real, 
and it is essential that it be avoided. A limited scope Authorization 
for the Use of Military Force would require the Administration to 
clearly articulate its strategy, including an envisioned endgame and 
the required resources. This would make for a more effective U.S. 
strategy, regardless of how it is perceived by adversaries.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
